<html>
<title> - LOST IN THE SHUFFLE: EXAMINING TSA'S MANAGEMENT OF SURFACE TRANSPORTATION SECURITY INSPECTORS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                 LOST IN THE SHUFFLE: EXAMINING TSA'S 

        MANAGEMENT OF SURFACE TRANSPORTATION SECURITY INSPECTORS

=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     AND INFRASTRUCTURE PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

                           Serial No. 111-78

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
66-028                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 Sheila Jackson Lee, Texas, Chairwoman
Peter A. DeFazio, Oregon             Charles W. Dent, Pennsylvania
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Emanuel Cleaver, Missouri            Steve Austria, Ohio
James A. Himes, Connecticut          Peter T. King, New York (Ex 
Dina Titus, Nevada                       Officio)
Vacancy
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)
               Thomas McDaniels, Staff Director (Interim)
                   Natalie Nixon, Deputy Chief Clerk
              Joseph Vealencis, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     7

                               WITNESSES
                                Panel I

Mr. Lee R. Kair, Assistant Administrator, Security Operations, 
  Transportation Security Administration:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Carlton I. Mann, Assistant Inspector General, Office of 
  Inspector General, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Mr. Thomas C. Lambert, Chief of Police, Senior Vice President for 
  Public Safety, Metropolitan Transit Authority of Harris County, 
  Texas:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27
Mr. Clyde J. Hart, Jr., Senior Vice President, Government Affairs 
  and Policy, American Bus Association:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29

                             FOR THE RECORD

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection:
  Statement of the Association of American Railroads.............     3

                                APPENDIX

Questions From Chairwoman Sheila Jackson Lee of Texas for Lee R. 
  Kair...........................................................    47


      LOST IN THE SHUFFLE: EXAMINING TSA'S MANAGEMENT OF SURFACE 
                   TRANSPORTATION SECURITY INSPECTORS

                              ----------                              


                        Wednesday, July 28, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 4:35 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, Thompson (ex 
officio), Dent, and Lungren.
    Ms. Jackson Lee. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
``Lost in the Shuffle: Examining TSA's Management of Surface 
Transportation Security Inspectors.''
    Let me, first of all, thank the witnesses who are present, 
thank the first panel for their patience as we had debate and 
votes on the floor.
    I would also like to acknowledge the nomination and 
confirmation of the new Administrator of TSA Mr. Pistole, who 
we have been in conversation with. We know that he is with the 
Secretary, I believe, of Transportation today, and we respect 
and appreciate his desire to be present today. But we will have 
a long history of working together, and, as I indicated, we 
know we will have an opportunity to hear from him in the coming 
weeks, and we look forward to doing so.
    Our witnesses today will testify about TSA's Surface 
Transportation Security Inspection Program and about how it is 
organized and staffed to meet the statutory mission of securing 
surface modes of transportation.
    I now recognize myself for 5 minutes for an opening 
statement.
    We are here today to discuss TSA's management of the 
central piece of its surface transportation security efforts, 
the Surface Transportation Security Inspection Program. TSA has 
been tasked with a complex and evolving mission to secure our 
transportation systems while maintaining the healthy movement 
of goods, services, and people.
    Since it was created nearly a decade ago in the wake of the 

9/11 attacks, TSA has focused the vast majority of its 
resources and assets on aviation security. Clearly the threat 
to aviation is still present, but TSA cannot ignore the obvious 
trend of terrorist attacks on surface transportation assets 
worldwide.
    Attacks in Spain, Great Britain, India, and Russia over the 
last few years have exposed surface system vulnerabilities, and 
we must take action to implement the lessons learned in 
securing our own transportation assets here in America. The 
attacks we have witnessed abroad have been well executed with 
devastating consequences. They demonstrate that securing a 
surface environment presents unique obstacles and 
vulnerabilities that do not exist in other modes.
    The Zazi case, the New York City case, was a chilling 
reminder that American transit systems, like those in Europe 
and Asia, are enticing targets for al-Qaeda and other terrorist 
groups. We must be vigilant. We must be prepared. Our Nation's 
mass transit and passenger rail systems provide 34 million 
passenger trips each weekday, compared to the 1.7 million 
passengers flying daily on commercial, domestic, and 
international flights. That is why this subcommittee, working 
with our Chairman, Chairman Thompson, was keenly engaged in the 
H.R. 2200 surface transportation legislation that we passed 
effectively out of this committee and on the floor of the House 
and is now awaiting Senate action.
    Yet 85 percent of TSA's resources are dedicated to aviation 
security, while just over 1 percent is dedicated to surface 

                  U.S. GOVERNMENT PRINTING OFFICE
transportation security. This disparity calls into question 
TSA's commitment to implementing effective surface security 
programs. We recognize that the pressure has been on aviation, 
but this is a drastic and almost devastating distinction and 
disparity.
    TSA's Surface Transportation Security Inspection Program is 
authorized in section 1301 of the 9/11 Act, which outlines 
specific parameters for the mission and make-up of surface 
inspectors. In February 2009, the DHS inspector general 
released a report on the effectiveness of TSA's surface 
transportation security inspectors that raised serious concerns 
about TSA's deployment of surface inspector resources.
    The report found that the program was understaffed for a 
long time, and that an aviation-focused command structure had 
undermined the quality and morale of the workforce. Although 
TSA concurred with one of the three IG recommendations, there 
has been little evidence of progress made by TSA in 
implementing them.
    Largely based on the IG's findings and recommendations, a 
robust provision addressing the surface inspector program was 
included in our TSA authorization bill, H.R. 2200, which passed 
the House by an overwhelming bipartisan majority in June 2009. 
However, over the past year TSA has implemented new changes to 
the surface inspector program that ignore these efforts, and 
further changes are being implemented under an initiative 
called TSI Evolution, which significantly redefines surface 
inspector activities and training.
    We are concerned that TSI Evolution minimizes the 
importance of the surface-focused mission and expertise 
required by statute in order to remake surface inspectors into 
jack-of-all-trades first responders who will be employed to all 
transportation modes. Currently new surface inspectors are 
required to complete 2 weeks of aviation and cargo training, 
but are only given 1 week of surface mode training.
    Even as it implements these changes, TSA has still not 
completed a staffing plan or any risk-based assessment to 
demonstrate how TSI Evolution will enhance security. Further 
complicating matters is the challenge presented by forthcoming 
security regulations required by the 9/11 Act. Rules on front-
line employee security training and security assessments for 
surface modes are more than 2 years overdue. These rules will 
drastically change the security landscape for surface 
transportation systems and will likely require an expansion of 
the surface inspector workforce, making the completion of a 
staffing assessment all the more imperative.
    As you can see, I have many concerns about the direction 
TSA is taking with its surface transportation security program, 
but I also know that it is a new day at TSA now that the agency 
has confirmed an administrator. I have met with the new TSA 
Administrator Mr. Pistole, and I know that he shares my concern 
about improving our surface security efforts. He has even asked 
to allow him to begin an assessment and to engage in his own 
reform and answers to our concerns that we have just expressed.
    We will look forward to giving him that ability, but we ask 
you today to address our questions. I will be asking him to 
look at this program closely, and I look forward to working 
with him in addressing the issues that we will be raising 
today.
    At this time, without objection, I would like to enter into 
the record a statement from The Association of American 
Railroads. Hearing no objection, it is so ordered.
    [The information follows:]
           Statement of the Association of American Railroads
                             July 28, 2010
    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to submit this statement for the 
record concerning the Transportation Security Administration's (TSA) 
Surface Transportation Security Inspection Program. AAR members account 
for approximately 72 percent of U.S. freight rail mileage, 92 percent 
of freight rail employees, and 95 percent of freight rail revenue. 
Amtrak and several commuter passenger railroads are also members of the 
AAR.
    Assuring the security of the Nation's passenger and freight 
railroads requires a multi-faceted, cooperative effort that taps the 
full-range capabilities--in the private sector and at all levels of 
government--and applies them to best effect to assure preparedness and 
to deter and respond to acts of terrorism. Our Nation's railroads 
strive continuously to meet this objective.
    Immediately following 9/11, more than 150 officials representing 
railroads, shippers, suppliers, and other stakeholders came together to 
complete a comprehensive risk assessment of the rail network and to 
develop an industry-wide security management plan. Key focus areas 
included critical infrastructure, operations, hazardous materials, 
communications and control systems, and military shipments.
    In effect by the end of 2001, the industry's security management 
plan remains the foundation both for individual railroads' security 
programs and for the industry's proactive approach in this vital area. 
A standing industry security working committee, supported by AAR's 
security staff, coordinates the overall effort. Particular emphasis is 
given to maintaining situational awareness and vigilance through 
intelligence and security information sharing via an active Railway 
Alert Network.
    Regular exercises, conducted both industry-wide and by the 
railroads individually, appraise the effectiveness of the industry's 
security plan. This week, for example, railroad personnel are meeting 
in St. Louis to train operations and security officials in anticipation 
of the next industry-wide exercise this October. Lessons learned from 
exercises and actual security-related incidents inform reviews and 
updates and assure that the plan continues to evolve to meet changing 
circumstances.
    Maintaining a constructive relationship with TSA and its Surface 
Transportation Security Inspectors (STSIs) is a top priority of the 
rail security effort. In this regard, commendable progress has been 
made:
  <bullet> In 2006, a joint Government-industry effort produced 
        agreement on security actions that are foundational to 
        effective programs. With distinctive approaches for freight 
        rail and passenger rail, the action items formed the basis for 
        comprehensive security assessments by TSA surface inspectors.
  <bullet> In passenger rail, the results of Baseline Assessment for 
        Security Enhancement (BASE) reviews inform security grant 
        program priorities and awards, and enable wide dissemination of 
        a compilation of the most effective security practices 
        observed.
  <bullet> In freight rail, Security Action Item Reviews emphasize 
        mitigating the risks associated with transport of toxic 
        inhalation hazardous (TIH) materials. According to the 
        Department of Homeland Security's Annual Performance Report for 
        2009, there has been a 53.6 percent reduction in risk against 
        the fiscal year 2006 baseline. This progress reflects an 
        effective public-private partnership: It occurred without 
        regulation (the TIH transport provisions of TSA's Rail 
        Transportation Security Rule did not take effect until well 
        into 2009) and exceeded the 50 percent target rate reduction 
        for the period.
  <bullet> Over the past year, TSA's Freight Rail Division has 
        initiated vulnerability assessments on the Nation's most 
        critical rail bridges, guided by the industry's prioritization 
        of structures. An integrated assault planning cell views the 
        bridges as a terrorist or saboteur would in evaluating 
        potential threats and their likely effects. Completing the 
        circle, in fiscal year 2010 some 86 percent of funds awarded 
        under the Freight Rail Security Grant Program went to projects 
        to mitigate rail bridge vulnerabilities identified in the TSA 
        assessments.
  <bullet> TSA's Freight Rail Division has initiated recurring 
        coordination meetings with the railroads. These sessions, long 
        requested by the industry, foster constructive relationships 
        and effective communication. They allow for open and candid 
        discussion of current programs and initiatives, future 
        priorities, and prevailing security issues and concerns. The 
        Freight Rail Division should be commended for establishing 
        these forums and for its willingness to enhance them. One 
        recent noteworthy enhancement is the integration of Amtrak and 
        commuter railroads for the next meeting in September.
    The most recent coordination meeting with rail personnel and 
personnel from TSA's Freight Rail Division took place in St. Louis on 
May 12-13, 2010, and featured a thorough discussion of TSA's Surface 
Transportation Security Inspection Program. During a presentation by 
the agency's Deputy Director of the Compliance Division, the railroads' 
representatives raised a number of concerns, including:
  <bullet> Inconsistency and lack of standardization in inspectors' 
        interpretation of, and action on, regulatory requirements, 
        especially with respect to transport of TIH. Many railroads 
        have experienced differing interpretations of specific 
        provisions in the Rail Transportation Security Rule and 
        different guidance regarding the nature and scope of actions 
        deemed acceptable in meeting requirements.
  <bullet> Disparities between the policies and guidelines issued by 
        TSA's Freight Rail Division and the actions of surface 
        inspectors in the field. Many railroads have encountered 
        situations in which an inspector has been unaware of policy 
        positions expressed by the Freight Rail Division.
  <bullet> Apparent lack of coordination with TSA Headquarters on 
        decisions concerning letters of investigation or violation 
        served on railroads. As a result, actions accepted as compliant 
        by some TSA field offices produce official citations as 
        violations by others.
  <bullet> Inspections and related activity seemingly driven more by 
        the need to meet a defined quantity than to advance security 
        enhancement objectives.
    Prior to the May 2010 meeting, railroads expressed these concerns 
through various means to TSA officials. Additionally, these points were 
reiterated by AAR's Assistant Vice President for Security, who served 
with TSA for nearly 6 years until March of this year, during a training 
conference in late June attended by all of TSA's surface inspectors and 
representatives of the Office of Compliance.
    TSA's recent appointment of Regional Security Inspectors (RSIs) as 
liaison to the Class I railroads offers a potential means to resolve 
these long-standing issues. With the appointment letters sent to each 
railroad and through other public statements, TSA officials have 
ascribed broad responsibilities to the RSIs for outreach and 
coordination with the railroads and for oversight of compliance-related 
actions. To their credit, the RSIs have been proactive in engaging the 
railroads' security and law enforcement officials to maintain open 
lines of communications and build constructive relationships. A number 
of RSIs attended the joint meeting with TSA in May. Each will be 
invited to attend future sessions. All participated in the surface 
inspectors' training conference in June.
    The railroads see some cause for optimism in the RSI concept, but 
judgment remains reserved. The RSIs' ability to spur progress, 
particularly with respect to consistency in inspections, depends upon 
their authority to oversee and manage the inspectors' activities in the 
field. In this area, the organizational structure may pose a 
substantial obstacle--the RSIs are not in the chain of command of the 
field inspectors. At the joint meeting with TSA in May, the railroads' 
representatives cited this point as a specific concern, questioning 
whether the RSIs could practically attain the role described in their 
appointment letters.
    The railroad community welcomes Assistant Secretary John Pistole 
and looks forward to working with him to meet the full range of 
security challenges. In furtherance of this commitment, AAR's security 
staff, acting on behalf of the railroad security committee and joined 
by the Executive Director of the American Short Line Railroad 
Association (ASLRRA), just last week held a thorough, half-day 
discussion on strategic priorities with TSA's Freight Rail Division. 
This dialogue will bear fruit in the agendas of future joint meetings 
of the railroads with TSA and consequent actions.
    Again, thank you for this opportunity to address a subject of great 
importance to the Nation's security.

    Ms. Jackson Lee. The association president Mr. Hamberger 
could not participate in the hearing today because he is on a 
trip to the Transportation Technology Center in Colorado with 
the new TSA administrator. While I am disappointed he could not 
be here, I am glad to see that he is participating in one of 
the first trips taken by the new administrator, which happens 
to be to a facility that conducts rail security, research, and 
training.
    I wanted to have this hearing because I believe when we 
come back after our work recess, it is very important to put a 
full-press push on addressing these concerns, but, more 
importantly, to allow these concerns to be addressed by the 
administration as many of us are working in our districts. We 
have got to move on surface transportation, and it has to be 
done now. Holding this hearing now was imperative so that our 
instructions and concerns can be taken into consideration by 
TSA as quickly as possible.
    Before I yield to the Ranking Member, let me say quickly 
for the record that I am concerned that the testimony was late 
in its submission from TSA. We received the testimony this 
morning, well past the deadline, and I must say that we hope 
that we can work together so this will not happen again. We 
welcome your interaction with the staff on any concerns that 
you may have.
    We have a new administrator, and I know there is some 
transition occurring, but I also know that he has as high 
standards as we do, and we expect the committee rules to be 
respected by the Department.
    I am also still waiting for a response to my July 9 letter 
to TSA about my concerns with the very programs we will be 
discussing today.
    As an aside, let me also say that I believe a letter will 
be coming or has been drafted to talk about our concerns about 
collective bargaining as well, and we hope and look forward to 
responses on that issue.
    The Chairwoman now recognizes the Ranking Member, Mr. Dent 
of Pennsylvania, for an opening statement.
    Mr. Dent. First, thank you, Madam Chairwoman. Thank you 
again for holding this hearing to address TSA's plans to 
strengthen its surface inspector workforce and the greater 
emphasis to surface transportation issues. I think it is 
something that we all embrace.
    We have all become aware of the threat against mass 
transit, in Moscow in March 2010; in Mumbai in July 2006; in 
London, July 2005; and in Madrid, of course, in 2004. The 
threat nearly hit home last year when the plot by Mr. Zazi and 
his co-conspirators to bomb the New York City subway system was 
uncovered. A potentially devastating attack was avoided by good 
fortune and the excellent teamwork between Federal and local 
law enforcement. The indictment discloses that Zazi's plan was 
only part of a much larger conspiracy to carry out many more 
similar attacks.
    The threat against surface transportation systems is clear, 
and they are highly vulnerable due to the open infrastructure 
and multiple access points. As you know, it is an open system. 
We cannot secure our surface systems as we have with our air 
systems.
    Nevertheless, TSA funding for surface transportation 
security remains highly skewed. In TSA's 2011 budget request, 
the $8.2 billion total request consisted of $6.5 billion for 
aviation security, and contained only $137.6 million for 
surface transportation security. Given that homeland security 
funding needs to be risk-based, we should be evaluating whether 
that imbalance accurately reflects the current state of risk in 
our Nation.
    I appreciate the recent comments of TSA Administrator 
Pistole's indicating he will be place greater emphasis on 
surface transportation security. I believe the growth of the 
surface transportation security workforce is an important step 
in that process. I am eager to learn greater specifics from the 
TSA today on how they plan to deploy that additional workforce.
    I am also looking forward to hearing from industry what 
issues should be considered as the role of surface 
transportation inspectors expands. I am concerned that surface 
transportation inspectors are being reassigned to airports from 
time to time, and transportation security officers typically 
stationed at airports are being used for surface transportation 
security. I anticipate learning how the TSA plans to divide 
this labor among its ever-increasing workforce this afternoon.
    In our country surface transportation includes more than 
100,000 miles of rail, 600,000 bridges, 300,000 tunnels and 2 
million miles of pipeline. Clearly the task of securing those 
open systems is significant. We should make every effort to 
ensure that the resources we have are used as effectively as 
possible to fulfill that goal.
    So I look forward to hearing from our witnesses today.
    Before I yield back my time, I did want to submit for the 
record testimony from LANTA, a mass transit organization in my 
district. LANTA comments that they want to improve emergency 
planning, but lacks staff resources. It is a great opportunity 
for TSA to work with a small transit agency in Pennsylvania.
    With that, I yield back my time, Madam Chairwoman. I will 
submit this for the record.
    Ms. Jackson Lee. Without objection, so ordered.
    The Chairwoman now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson for an 
opening statement, who has worked with this subcommittee very 
closely on the issues addressing surface transportation 
security.
    The gentleman is recognized.
    Mr. Thompson. Thank you very much, Chairwoman Jackson Lee. 
I compliment you for convening this important hearing and 
continuing your rigorous oversight into the security of all 
modes of transportation.
    Today we will evaluate TSA's management of the Surface 
Transportation Security Inspection Program and discuss the role 
of surface transportation security inspectors. We want to 
understand how effective this program is in securing our 
Nation's transit systems, highways, and rail lines against 
terrorist attacks.
    Like the Chairwoman stated, just last year a plot to attack 
the New York City subway system was uncovered, and in recent 
years we have seen the horrific attacks of a commuter rail line 
in Madrid in 2004, and on the London transit system in 2005, 
and on the Mumbai subway railway in 2006 and 2008, and on 
Moscow's subway earlier this year. The question in all of our 
minds is what are we doing here at home to address the 
terrorist threat on our Nation's highways, transit, and rail 
systems?
    TSA is responsible for the security of all modes of 
transportation, yet TSA's record to date for implementing 
functional surface security programs has been poor. For 
example, two critical surface regulations required by the 9/11 
Act to address front-line employee security training and 
security assessments are more than 2 years overdue.
    Earlier this month I met with the new TSA Administrator 
John Pistole, and I have his assurance that addressing surface 
transportation security will be a priority for him. The Members 
of this committee stand ready to work with the new 
administrator on this very important issue.
    Today the inspector general will discuss his critical 
assessment of how TSA is carrying out its surface 
transportation security mission, with a particular emphasis on 
the management of the surface transportation security 
inspectors. This evaluation will help our Members and 
Administrator Pistole in developing a roadmap for TSA to 
improve this program and other surface transportation security 
programs in the future.
    I welcome our witnesses today and look forward to a frank 
assessment of the problems and potential solutions for moving 
forward and strengthening TSA's surface transportation 
inspector program.
    Madam Chairwoman, I yield back the time.
    Ms. Jackson Lee. I thank the Chairman very much.
    At this time I welcome our first panel of witnesses. Our 
first witness is Mr. Lee Kair, assistant administrator for 
security operations at TSA. Mr. Kair was named TSA's assistant 
administrator for security operations in October 2008 and is 
responsible for providing executive management of daily field 
operations for a workforce of approximately 48,000 employees at 
more than 450 airports Nation-wide.
    Mr. Kair is also responsible for regulatory compliance, 
program planning, partnering with security operators and other 
transportation modes, and the development of strategic plans 
for the future operational role of TSA.
    Prior to this position, Mr. Kair was a Federal Security 
Director in Orlando, Florida. That means that he was enormously 
busy.
    The second witness is Mr. Carlton Mann. Mr. Mann has 
appeared before us before and has served as the Department of 
Homeland Security's Assistant Inspector General for Inspections 
since August 2006. In that position Mr. Mann provides the 
inspector general with a means to analyze programs quickly and 
evaluate operational efficiency and vulnerability across the 
spectrum of DHS components.
    Mr. Mann was previously a senior program analyst with the 
Federal Emergency Management Agency's Office of Inspector 
General.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Kair.
    First of all, welcome to the committee. We look forward to 
your testimony.
    Mr. Kair, you are recognized.

  STATEMENT OF LEE R. KAIR, ASSISTANT ADMINISTRATOR, SECURITY 
       OPERATIONS, TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Kair. Good afternoon, Chairwoman Jackson Lee, Ranking 
Member Dent and distinguished Members of the subcommittee. My 
name is Lee Kair, and I am the assistant administrator for 
security operations. Thank you for the opportunity to speak 
with you on the Transportation Security Administration's 
Surface Inspection Program. I look forward to updating you 
about a number of changes we have made to the program that are 
beginning to produce solid improvements in security.
    First I would like to acknowledge John Pistole's 
confirmation as TSA's administrator. In his recent confirmation 
hearings, Mr. Pistole stated that he would assess TSA's surface 
transportation efforts in concert with State and local 
authorities. In the mere weeks since he was sworn into office, 
Administrator Pistole already has initiated that review, and 
just yesterday visited the Surface Transportation Training 
Center in Pueblo, Colorado.
    So as I discuss the recent improvements to the program, 
please also be aware that the administrator's review is on-
going. This includes the program's organizational structure and 
role within TSA's overall mission.
    Before I highlight the four key improvements we have made, 
I would like to take a moment to acknowledge the hard work, 
dedication, and professionalism of the men and women of the 
Office of Security Operations, including our transportation 
security officers and inspectors on the front line ensuring the 
safety of the traveling public.
    The first improvement I would like to discuss is the 
reorganization of the TSI-Surface leadership. First, this past 
January we realigned the most senior TSA personnel devoted to 
surface transportation security. This change was designed to 
promote a Nationally-balanced approach to regulatory compliance 
activities that recognizes the need for regional and localized 
strategies.
    Keeping the GAO and IG recommendations in mind, we assigned 
six regional security inspectors, or RSIs, to cover the entire 
country. We also assigned each RSI as the single point of 
contact for each Class One railroad to standardize the 
application of National policy. The RSIs each average over 25 
years of surface transportation experience and are recognized 
as the subject matter expert in their field. They report to an 
assistant general manager in our headquarters who has 31 years 
of surface transportation experience, including experience in 
running the Transportation Security Center, or TSOC, surface 
watch desk.
    I am pleased to report that these RSIs have quickly 
developed strong ties with each of their rail security 
coordinators for these railroads in their respective areas of 
responsibility. As importantly, these RSIs provide robust 
oversight of all surface inspection, assessment, and 
operational activities. They work closely with our local 
Surface TSIs and Federal Security Directors to drive local 
accountability for carrying out the National work plan.
    This model provides National oversight with local insight 
and includes strong mentorship of our TSIs as well. Often the 
RSIs will spend time on-site in demonstrating hands-on how to 
interpret the nuances of the trade. The RSI framework allows us 
to enhance security across modes by leveraging strong 
professional networks and relationships with local security 
officials and operators within the industry. It is also 
essential in supporting the local framework, where we emphasize 
consistent and clear reporting lines from Surface TSIs to FSDs.
    Second, expanded role of TSI-Surface in the VIPR Program. 
The second improvement I would like to discuss is the expanded 
role of Surface TSIs in the Visible Intermodal Prevention and 
Response, or VIPR, Program. We have added one primary senior 
TSI to each VIPR team. Their role is to provide invaluable 
surface transportation expertise and force multiplication to 
these teams.
    The TSI involvement varies by location from acting as the 
designated VIPR coordinator for non-aviation VIPR activity to 
participating in the planning and our execution of the VIPR 
operations. This change takes on added significance with the 
expansion of the VIPR Program from 15 to 25 dedicated teams.
    TSA has also expanded the full-time representation of TSIs 
for National VIPR planning, coordination, and deployment. Three 
full-time TSI staff are located in the VIPR Joint Coordination 
Center at the TSOC. These TSIs have greatly increased the level 
of modal expertise and awareness for the VIPR Program, as well 
as much-needed insight during the planning and coordination of 
VIPR deployments.
    Third, risk-based TSI-Surface deployment methodology. The 
third improvement I would like to highlight is the development 
of a risk-based approach to allocate Surface TSI staff and to 
open new surface offices in the field. While TSA does not have 
the resources to assign TSIs to every major city in America, by 
carefully assessing areas with the greatest risk and defining 
geographic areas of responsibility, this approach helps ensure 
both complete access to regulated parties as well as 
comprehensive VIPR coverage.
    Fourth, building the TSI-Surface training infrastructure at 
Pueblo, Colorado. The fourth and final improvement I would like 
to discuss with regard to this program is the on-going 
development and investment in the surface training facility in 
Pueblo, Colorado.
    The Surface Training Center in Pueblo currently orients 
inspectors to the railroad operating environment and provides 
safety awareness training. Courses under development for fiscal 
year 2011 will provide training in advanced railroad 
operations, VIPR operations, and highway and motor carrier 
over-the-road bus operations. This facility is essential to our 
on-going efforts to improve the overall National security 
posture of the surface transportation in this country.
    In conclusion, I want to thank you for the opportunity to 
provide this update on TSA's on-going improvements to the 
Transportation Security Inspection Program, and I would be 
happy to answer your questions.
    [The statement of Mr. Kair follows:]
                   Prepared Statement of Lee R. Kair
                             July 28, 2010
    Good afternoon Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify on the Transportation Security Administration's 
(TSA's) management and guidance of the surface transportation security 
inspection program authorized in section 1304 of the Implementing 
Recommendations of the 9/11 Commission Act of 2007 (9/11 Act).
    The subcommittee's choice of this topic for the hearing today is 
timely for a number of reasons. The first reason is the need for TSA to 
continue to focus attention on surface transportation. Secretary 
Napolitano has demonstrated her commitment to improving surface 
transportation security, and in his confirmation hearings, our new TSA 
Administrator, Mr. John Pistole, stated a number of times that, if 
confirmed, he planned to ``assess TSA's non-aviation surface 
transportation efforts in concert with State and local authorities.'' 
Administrator Pistole further noted the terrorist attacks on foreign 
rail and mass transit systems, the planned but thwarted attacks on U.S. 
mass transit systems that carry millions of people every day, the 
content of intelligence reporting that drives TSA efforts, and the 
challenge of hardening surface transportation systems as reasons for 
his plans to review TSA surface transportation security efforts. 
Because of Administrator Pistole's recent arrival at TSA, his review of 
this vital topic is not complete.
    The second reason that this hearing is timely is because TSA has 
initiated a number of improvements to its surface transportation 
security inspection program. These changes address concerns expressed 
by Members of this subcommittee, by Members of the full Homeland 
Security Committee and others in the Congress, and by the Government 
Accountability Office (GAO). I will update you on the most significant 
of these changes in a few moments.
    The third reason why this hearing is timely is that it provides us 
an opportunity to receive guidance from this subcommittee as TSA moves 
forward to improve surface transportation security. While the statutes 
drafted and enacted by the Congress provide general guidance, hearings 
like this provide the opportunity for additional dialogue. During his 
confirmation hearings, Mr. Pistole heard from members of the Senate on 
this topic, and this hearing provides TSA with the opportunity to hear 
from you. Again, this is particularly relevant as Administrator Pistole 
begins his comprehensive review of TSA's surface transportation 
security program.
    I would like to update you on four important and recent 
improvements involving the surface transportation security inspection 
program.
                    new rsi-s positions established
    In an effort to provide more direct oversight of the surface 
transportation security program, a realignment of personnel devoted to 
surface transportation was accomplished in January 2010 pursuant to TSA 
Operational Directive (OD) 400-54-5. Six Assistant Federal Security 
Director--Surface (AFSD-Surface) positions that previously reported to 
Federal Security Directors (FSDs) were abolished, and six new Regional 
Security Inspectors--Surface (RSIs-S) positions were established. The 
RSIs-S report directly to the new TSA headquarters Surface Inspection 
Oversight Assistant General Manager, not to FSDs.
    The Surface Inspection Oversight Assistant General Manager, Carl 
Ciccarello, has 31 years of surface transportation experience, 
including 17 years in military operations, 7 years running the port of 
New York for the U.S. Coast Guard, and 7 years with TSA running the 
Transportation Security Operations Center (TSOC) surface watch desk. 
Since then, he has been building, managing, and leading the TSA Surface 
Transportation Security Inspection Program.
    The six field RSIs-S are positioned throughout the country to more 
easily provide active on-site oversight of surface inspection, 
assessment, and operational activities. Each of these six RSIs-S are 
also assigned as TSA corporate liaisons to all Class One and large 
regional railroads, which promotes a Nationally balanced approach to 
regulatory compliance activities and operational issues for large 
railroad corporate entities related to rail security.
    The six regional RSIs-S average more than 25 years of surface 
transportation experience and are recognized as the surface security 
subject matter experts in the field. The RSIs-S quickly developed 
strong communication ties with each of the Rail Security Coordinators 
for Class One and large regional railroads to facilitate continuous 
dialogue. The work of the RSIs-S thus far has provided consistent 
application of security regulations across railroad entities. Issues 
discussed in recent months have included Rail Sensitive Security 
Materials (RSSM) chain of custody requirements, including location 
information, paperwork evidence, and U.S. border implications and 
jurisdiction.
    The RSIs-S organizational change, providing direct headquarters 
surface transportation oversight, already is bearing fruit. Prior to 
the change in organization, TSA surface transportation inspection 
programs in both Los Angeles and St. Louis were struggling to meet TSA 
work plan mandates. The RSIs-S provided audit reviews of each 
operation's work products, and then worked with and provided on-site 
assistance and leadership to local TSA staff, who took corrective 
actions. TSA staff in both of those cities now are meeting or exceeding 
the work plan requirements for fiscal year 2010.
                a collaborative security-based workforce
    The Regional Security Inspectors (RSIs) provide day-to-day support 
to the Area Directors (AD) with overall program direction and 
supervision being provided by the Office of Compliance Programs at 
headquarters within the OSO. In addition to other assigned surface 
transportation duties, RSIs serve as liaisons between TSA OSO and large 
freight rail corporations whose operations are multi-regional or 
National in scope and will support regional activity as directed by the 
AD. RSIs focus on National/corporate level compliance issues, and 
generally do not have a role in compliance activity that is local in 
nature (that is, routine compliance and enforcement activity); rather, 
such compliance activity will fall within the purview of the FSDs. 
Transportation Security Inspectors--Surface (TSIs-Surface) report to 
Assistant Federal Security Directors for Inspections (AFSD-Is), who in 
turn report to the FSD and are responsible for, at a minimum, all 
inspection, compliance, and enforcement activity within the areas of 
responsibility of the FSD offices in which they reside.
    TSA is currently building a workforce of 404 TSIs-Surface to be 
employed throughout the Nation. The TSI-Surface workforce conducts 
comprehensive assessments, inspections, and investigations of surface 
transportation systems; oversees compliance with applicable 
transportation security policies, directives, standards, and 
agreements; identifies potential problem areas or deviations from 
prescribed standards; and ensures overall adequacy, effectiveness, and 
efficiency of the security posture of surface transportation systems.
    The FSDs are the operational field component of OSO and are charged 
with the implementation of all field operational activities across all 
modes of transportation. TSA uses this command structure because FSDs 
are equipped to leverage the security network in their area. FSDs 
frequently interact with State and local law enforcement and surface 
transportation system operators and understand the vulnerabilities and 
challenges of the surface transportation modes in their backyard, some 
of which also feed into airports.
    TSA has adopted this network decision-making model in all modes of 
transportation, including its other inspection divisions in aviation 
and cargo. This approach recognizes the need for regional and localized 
strategies to enhance cross-modal prevention, detection, response, and 
recovery efforts based on accurate and thorough domain awareness, 
strong professional networks and relationships with local security 
officials and transportation mode operators, and consistent and clear 
reporting lines to the local FSD.
 expanded role of tsi-surface in the visible intermodal prevention and 
                        response (vipr) program
    With the expansion of the FAMS VIPR program from 15 to 25 dedicated 
teams, TSA has assigned one primary senior TSI-Surface official to each 
team. Their role is to provide surface transportation expertise to the 
teams that did not previously exist. The TSI-Surface involvement varies 
by location, from acting as the designated VIPR coordinator for non-
aviation VIPR activity to actively participating in the planning and/or 
execution of VIPR operations. The TSI-Surface assignments will be 
rotated among the surface inspectors at each of the 25 TSA dedicated 
VIPR team locations on a 60- to 90-day schedule. This provides for work 
role expansion for each of the TSIs while allowing for practical 
application of inspector skills and training when not assigned to the 
dedicated VIPR team.
    TSA also has expanded the full-time representation of TSI-Surface 
officials for National level VIPR planning, coordination, and 
deployment. The full-time TSI-Surface staff is located in the VIPR 
Joint Coordination Center, and includes two TSI-Surface staff and one 
Supervisory TSI-Surface official. These officials join the Office of 
Security Operations VIPR Branch Chief, who was added to the Joint 
Coordination Center in January 2010.
    The addition of these personnel has greatly increased the level of 
surface transportation experience for VIPR operations, and also adds 
important surface transportation perspectives into the planning and 
coordinating VIPR deployments. For example, TSI-Surface staffers 
assigned to dedicated VIPR teams carry out comprehensive security 
surveys of rail stations and verify physical security measures already 
in place. The station profile data are an integral part of an 
initiative currently underway to enhance and improve the VIPR 
deployment planning, operations, and reporting processes.
             risk-based tsi-surface deployment methodology
    As the TSA surface transportation security inspection program has 
expanded and matured, TSA has used a risk-based approach to allocate 
TSI-Surface staff and to open new surface offices. Other qualitative 
data also are considered to better serve surface transportation 
security based on the division of geographic areas of responsibility. 
While TSI-Surface staff are not assigned to every major city in 
America, defining geographic areas of responsibility helps ensure both 
complete coverage of regulated parties as well as comprehensive VIPR 
coverage.
    The risk-based approach considers four key factors before assigning 
a final risk based score to a city, including:
  <bullet> location within a high-threat urban area;
  <bullet> location of a top 100 mass transit/passenger rail system 
        within the home city;
  <bullet> toxic inhalation hazardous (TIH) materials flow within that 
        city; and
  <bullet> whether the city is located in the northeast corridor (NEC).
    Currently, a total of 54 cities have TSI-Surface staff, including 
robust coverage in the NEC. Over the coming months, TSA plans to add 
surface offices and TSI-Surface staff in:
  <bullet> Austin, TX,
  <bullet> Baton Rouge, LA,
  <bullet> El Paso, TX,
  <bullet> Fresno, CA,
  <bullet> Honolulu, HI,
  <bullet> Mobile, AL,
  <bullet> Nashville, TN,
  <bullet> Ontario, CA,
  <bullet> Tulsa, OK,
  <bullet> Queens, NY,
  <bullet> Moline, IL, and
  <bullet> Tucson, AZ.
    All surface offices are staffed with at least two persons. Through 
the use of a new standing National register, TSA has received tens of 
thousands of applicants for inspector positions, greatly increasing the 
pool of qualified applicants and reducing the time needed to fill 
vacancies.
    The large number of Risk Reduction Survey (RRS) assessments and 
inspections that have been conducted by TSIs-Surface since 2006 has 
provided TSA with additional data on the cities that are the best 
candidates for new surface offices. The RRS survey program also has 
been successful in reducing surface transportation risks: Freight rail 
systems have reduced the percentage of Rail Sensitive Security 
Materials that pose a toxic inhalation hazard and that are unattended 
while at rest from over 80 percent in 2006 to approximately 7 percent 
in 2010.
  building the tsi-surface training infrastructure at pueblo, colorado
    In anticipation of the need to train new TSIs-Surface on railroad-
specific safety and security issues, TSA began training the workforce 
at the Transportation Technology Center in Pueblo, CO in 2006. After 
realizing the value and potential of this site, TSA entered into 
Memorandum of Agreement (MOA) with the Federal Railroad Administration 
to build out a portion of the facility in Pueblo to allow for more 
advanced training capabilities. TSA also has partnered with other 
Federal agencies and stakeholders to obtain rail cars for practical 
training purposes and to build infrastructure at the site. 
Administrator Pistole visited the facility earlier this week as part of 
the significant outreach he has been performing since being sworn-in as 
our new administrator this month.
    The development of consistent, thorough training for TSIs-Surface 
is key to ensuring that TSA has a technically proficient and agile 
workforce, and to ensure that its inspectors operate safely and 
appropriately in the surface transportation environment. To further 
deliver on our commitment to improve surface transportation security 
training, TSA has assigned personnel to develop the TSI-Surface 
curriculum and to deliver training material. This team is also 
responsible for the future expansion of the Pueblo site, and the 
development of expanded training courses that will cross all surface 
modes of transportation.
    Current training at the Transportation Technology Center for TSI-
Surface staff includes coursework focused on orienting inspectors to 
the specific railroad operating environment and providing safety 
awareness. Future courses at the facility will provide TSI-Surface 
staff with an advanced railroad operating course, VIPR training, and a 
highway motor carrier/over-the-road bus course. All courses will 
include both classroom instruction and on-site practical application 
and exercises. TSA is very excited about the future potential of the 
Surface Transportation Security Training Center.
    In conclusion, I want to thank you for the opportunity to provide 
this update on TSA's on-going improvements to its surface 
transportation security inspection program, and I would be happy to 
answer your questions.

    Ms. Jackson Lee. Mr. Kair, thank you so very much for your 
testimony.
    Mr. Mann, you are now recognized for 5 minutes.

  STATEMENT OF CARLTON I. MANN, ASSISTANT INSPECTOR GENERAL, 
  OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF HOMELAND SECURITY

    Mr. Mann. Good afternoon, Madam Chairwoman, Ranking Member 
Dent, Chairman Thompson. Thank you for the opportunity to 
testify on the Transportation Security Administration's 
management of surface transportation security inspectors.
    As each Member of the subcommittee noted, terrorist 
incidents abroad have underscored the need to focus more on 
mass transit, highway, maritime, pipelines, and freight rail. 
Surface inspectors play a critical role in helping secure those 
transportation modes.
    Within the last 2 years, we have issued two reports related 
to surface transportation issues, including the Surface 
Transportation Security Inspector Program. I would like to 
highlight briefly the results of those reviews.
    In June 2008, we issued a report, TSA's Administration and 
Coordination of Mass Transit Security Programs. That report 
addressed strengths and weaknesses of TSA's oversight and 
assistance programs for mass transit rail, including the 
Surface Transportation Security Inspection, Transit Security 
Grant, VIPR, and the National Explosives Detection Canine Team 
Programs. Our goal was to evaluate how well TSA managed those 
programs and how well the programs met the security needs of 
the major mass transit rail systems.
    We identified important challenges to improve transit rail 
security and reported that TSA could improve certain aspects of 
each program. We observed unclear and unduly complex chains of 
commands, an unclear mission or insufficient guidance, and 
insufficient communication. We noted that TSA needed to 
integrate stakeholder expertise further, to implement its 
oversight of assistance programs and fulfill its responsibility 
for mass transit security.
    As mandated by the 9/11 Commission Act, we conducted a 
follow-up inspection of the Surface Inspection Program. In 
February 2009, we issued a report, Effectiveness of TSA's 
Surface Transportation Security Inspectors. We determined that 
TSA needed to look critically at how it is deploying resources 
and assess how planned exercises could use inspectors better.
    The program appeared understaffed for the long-term, and an 
aviation-focused command structure had reduced the quality and 
morale of the workforce. We sought to convince TSA to integrate 
surface inspectors and their unique transit and rail expertise 
into VIPR planning and deployment, and it is good to hear that 
that apparently is happening.
    TSA concurred with our recommendation to examine how many 
inspectors it needed to perform necessary functions by 
assessing current and anticipated future duties. TSA did not 
concur with our recommendation to place the surface inspectors 
under the direct authority of a TSA headquarters official 
responsible for surface transportation.
    The Surface Inspection Program organization chain of 
command continues to evolve, but in a manner which is not 
consistent with our recommendations. Both inspection reports 
recommended that TSA place the responsibility for the program 
with an official at TSA headquarters.
    TSA did not agree that the transportation security 
inspection command structure inhibited its effectiveness. TSA 
indicated that it was taking steps to strengthen communications 
between the Surface Inspection Program and the Federal Security 
Directors.
    In September 2009, we learned that TSA was planning to 
restructure its surface resources, and, as my colleague 
mentioned, in January 2010, TSA executed the reorganization.
    Last week we received TSA's reorganization plan. The 
restructuring plan affected numerous senior staff within the 
Surface Inspector Program. TSA has abolished positions, 
established new positions, realigned some functions among 
positions, and reallocated resources among field offices 
throughout the country.
    Specifically, TSA abolished the position of Assistant 
Federal Security Director for Surface and assigned those 
responsibilities to the position of Supervisory Transportation 
Security Inspector for Surface and a newly created Regional 
Security Inspector. Supervisory TSIs for Surface report to the 
Assistant Federal Security Directors for Inspections, who 
report to the Federal Security Directors.
    As we continue to study the reorganization, we remain 
concerned whether these changes will enhance TSA's 
relationships and communication with the surface transportation 
partners. The presence of dedicated Surface Assistant Federal 
Security Directors afforded TSA recognizable liaison to transit 
systems and enabled information sharing. Without further 
review, we do not know whether this plan will better enable 
surface resources to operate effectively and adequately in the 
aviation-centric environment.
    We look forward to continuing our work with the Department 
to identify ways to strengthen the surface transportation 
mission, and at this point I would be glad to answer any 
questions that you may have.
    [The statement of Mr. Mann follows:]
                 Prepared Statement of Carlton I. Mann
                             July 28, 2010
    Good afternoon Chairwoman Jackson Lee and distinguished Members of 
the subcommittee. Thank you for the opportunity to testify on the 
Transportation Security Administration's (TSA) management of surface 
transportation security inspectors.
    When discussing transportation security, people usually think of 
aviation security first. However, terrorist incidents abroad have 
underscored the need to focus more on surface transportation modes--
mass transit, highway, maritime, pipelines, and freight rail. Surface 
inspectors play a critical role in helping secure these transportation 
modes.
    The Aviation and Transportation Security Act of 2001 gave the 
Transportation Security Administration authority and responsibility for 
security on all modes of transportation. Congress further clarified 
TSA's oversight role with the 9/11 Commission Act. Beginning in 2004, 
TSA increased its efforts to mitigate the vulnerability of mass transit 
rail systems across the United States. This was accomplished by 
introducing mass transit stakeholder security forums; developing 
guidance, memorandums, and directives; using its Surface Transportation 
Security Inspection (STSI) Program to provide voluntary vulnerability 
assessments; and, providing support through grants and direct 
operational assistance.
    Within the last 2 years, the Office of Inspector General (OIG) has 
issued several reports related to surface transportation issues, 
including the STSI program. I would like to highlight the results of 
those reviews. Most of my statement focuses on our findings and 
recommendations. However, it is important to point out that we also 
reported that TSA's surface inspector assessment and domain initiatives 
have been effective, and have helped the program achieve many of its 
goals.
    In June 2008, we issued an inspection report, TSA's Administration 
and Coordination of Mass Transit Security Programs (OIG-08-66). This 
report addressed the strengths and weaknesses of TSA's oversight and 
assistance programs for mass transit rail, including the STSI Program, 
the Transit Security Grant program, the Visible Intermodal Prevention 
and Response (VIPR) program, and the National Explosives Detection 
Canine Team Program. Later that year, we conducted a follow-up 
inspection and in February 2009 issued another report, Effectiveness of 
TSA's Surface Transportation Security Inspectors (OIG-09-24). This 
report addressed the strengths and weaknesses of TSA's Surface 
Transportation Security Inspectors. Most recently, in March 2010, the 
OIG issued a report, TSA's Preparedness for Mass Transit and Passenger 
Rail Emergencies (OIG-10-68). This report was prepared by the OIG's 
Office of Audits. It does not directly address issues involving the 
management of surface inspectors. However, it addresses TSA's 
effectiveness in supporting mass transit and passenger rail 
stakeholders with preparing for and responding to emergencies. In 
total, the OIG made 14 recommendations to TSA to promote more 
efficient, effective, and economical operations.
    In our mass transit report, we identified important challenges to 
improve transit rail security, meet the needs of mass transit 
authorities, and comply with legislation which expanded TSA's statutory 
authority and responsibility. In our review of the Surface 
Transportation Security Inspector program, we concluded that TSA needed 
to look critically at how it is deploying resources. The central issue 
in both reports was the mission, organization, and command structure of 
its surface inspectors. In particular, its command structure appeared 
to be aviation-focused.
    Subsequently, the Office of Audits evaluated TSA's effectiveness in 
supporting mass transit and passenger rail agencies in preparing for 
and responding to emergency incidents. Their audit report overlapped 
with the inspection reports in one aspect. The inspection reports 
discussed TSA's use of the Baseline Assessment for Security Enhancement 
(BASE) program. It pointed out that they have led to security 
improvements in the mass transit systems reviewed, but did not analyze 
the BASE program or processes. The auditors did, and they identified 
weaknesses in the BASE program's ability to assess passenger rail 
stakeholders' emergency preparedness and response capabilities.
    Following is a more detailed summary of each report.
tsa's administration and coordination of mass transit security programs 
                              (oig-08-66)
    The purpose of our review was to evaluate TSA's four largest 
oversight and assistance programs for mass transit rail: The Surface 
Transportation Security Inspection Program, the Transit Security Grant 
Program, the Visible Intermodal Prevention and Response program, and 
the National Explosives Detection Canine Team Program. Our goal was to 
evaluate how well TSA managed these programs and how well the programs 
met the security needs of the major mass transit rail systems.
    The 9/11 Commission Act, which was enacted shortly after we began 
this review, introduced new mass transit rail standards and 
responsibilities for TSA. Where we obtained information on the then 
current status of TSA compliance with standards introduced by the 9/11 
Commission Act, we included it in our report. The review did not 
encompass TSA's responsibilities for freight rail and for intercity 
passenger rail, or for other forms of mass transit, such as buses. We 
conducted our fieldwork from June 2007 to October 2007.
    We reported that TSA could improve certain aspects of each of these 
mass transit security programs. We observed unclear or unduly complex 
chains of command; an unclear mission or insufficient guidance; and 
insufficient communication. TSA needed more consistency in its 
interactions with mass transit rail stakeholders--who were at odds over 
the best approach for allocating funds and prioritizing projects for 
the Transit Security Grant Program--although it acknowledged and 
attempted to address some early missteps that strained stakeholder 
relationships. Nonetheless, we noted TSA should further integrate 
stakeholder expertise to effectively implement its oversight and 
assistance programs and fulfill its responsibility for mass transit 
security. We reported considerable satisfaction among mass transit 
agencies using the National Explosives Detection Canine Team Program.
    The report contained seven recommendations aimed at improving TSA's 
oversight and assistance programs for mass transit rail. TSA concurred, 
or concurred in part, with recommendations to direct its Transportation 
Security Network Management office to provide Transportation Security 
Inspectors (TSI) information and updates on the rail-related programs; 
develop procedures for incorporating asset-specific risk and 
vulnerability assessments, including information provided by TSIs, into 
the grant decision-making process and grant guidance; include in its 
annual report to Congress on how it used grants to implement its 
transportation security goals each grant recipient's assessment of the 
grant application and award process; seek Memorandums of Agreement with 
all relevant transit authorities regarding VIPR deployments; and revise 
grant program eligibility criteria to allow start-up funds for mass 
transit systems that do not already have a canine explosive detection 
unit.
    TSA did not concur with two recommendations: Place the 
Transportation Security Inspectors--Surface under the direct authority 
of a TSA headquarters official who is responsible for surface 
transportation, and develop specific, feasible security standards for 
mass transit systems.
    A few of the report's recommendations are not yet resolved, pending 
additional information from TSA and the resolution of recommendations 
in the follow up STSI report.
effectiveness of tsa's surface transportation security inspectors (oig-
                                 09-24)
    The 9/11 Commission Act directed the OIG to evaluate the 
performance and effectiveness of TSA's Transportation Security 
Inspectors--Surface and whether there is a need for additional 
inspectors. The act stated: ``Not later than September 30, 2008, the 
Department of Homeland Security Inspector General shall transmit a 
report to the appropriate congressional committees on the performance 
and effectiveness of surface transportation security inspectors, 
whether there is a need for additional inspectors, and other 
recommendations.'' We conducted our fieldwork from February to July 
2008.
    We determined that TSA needed to look critically at how it is 
deploying resources, and assess how planned exercises could better use 
the inspectors and their activities. The program appeared understaffed 
for the long term and an aviation-focused command structure had reduced 
the quality and morale of the workforce.
    TSA agreed that TSIs and their unique expertise in mass transit and 
rail should be integrated into VIPR planning and deployment. TSA stated 
that it has addressed the potential role of TSIs in its VIPR Team 
Capabilities and Operational Deployment guide. TSA did not agree that 
TSIs' comprehensive inspection activities, such as BASE and SAI 
reviews, should be integrated into VIPR operations.
    TSA concurred with our recommendation to examine how many 
inspectors it needed to perform necessary functions by assessing 
current and anticipated future duties, and then expand the TSI 
workforce to ensure that each field office has sufficient staffing. 
However, at the time of our report we did not agree with the approach 
TSA proposed to take to carry out this recommendation.
    TSA did not concur with our earlier recommendation, which we 
repeated in this report, to place the Transportation Security 
Inspectors--Surface under the direct authority of a TSA headquarters 
official who responsible for surface transportation. TSA did not agree 
that the TSI command structure inhibited TSI effectiveness and we were 
unsuccessful in persuading TSA to carry out this recommendation. 
Ultimately, in the absence of a commitment from TSA management to 
modify its command structure, we retracted our original recommendation 
and instead recommended that TSA eliminate practices that undermined 
efforts to establish a more transparent chain of command. In its last 
update, TSA indicated that it was taking steps to strengthen 
communication between the STSI program and Federal Security Directors 
and their staffs in the field.
  tsa's preparedness for mass transit and passenger rail emergencies 
                              (oig-10-68)
    The purpose of this audit was to evaluate TSA's effectiveness in 
assisting passenger rail and mass transit stakeholders with preparing 
for and responding to emergencies. The Office of Audits conducted this 
performance audit between April and August 2009, and the OIG issued its 
final report in March 2010.
    The OIG determined that TSA can better support passenger rail 
agencies by improving its assessments of emergency preparedness and 
response capabilities. The agency can also improve its efforts to train 
passenger rail agencies and first responders, and ensure that drills 
and exercises are live and more realistic to help strengthen response 
capabilities. The agency has focused primarily on security and 
terrorism prevention efforts, while providing limited staff and 
resources to emergency preparedness and response. As a result, 
passenger rail agencies and the first responders that rely upon may not 
be adequately prepared to handle all emergencies or mitigate their 
consequences.
    The report made four recommendations. TSA concurred with, and took 
corrective actions for, all four recommendations.
   evolution of the surface transportation security inspector program
    The STSI program's organization and chain of command continues to 
evolve, but in a manner which is not consistent with our 
recommendations. As discussed above, we reported our concerns twice 
about the organization and authority for the program and in both 
reports recommended that TSA place the responsibility for the STSI 
program with an official at TSA headquarters. After considering TSA's 
comments on the STSI report, we revised our recommendation to TSA to 
eliminate practices that undermined efforts to establish a more 
transparent chain of command.
    In December 2006, TSA shifted from a system where TSIs reported to 
surface-focused supervisors to a system where TSIs reported to 
aviation-focused supervisors. TSA reorganized the program to match the 
field command model for aviation and cargo inspectors. Supervisory TSIs 
became Assistant Federal Security Director--Surface (AFSDs-Surface) who 
reported to the local Federal Security Director (FSD). The FSD was the 
administrative manager, but the STSIP headquarters office still set the 
priorities and provided the budget resources for the inspectors in the 
field. AFSDs-Surface, therefore, effectively had two chains of command.
    In May 2008, TSA made further changes. In primary field offices 
that have an AFSD-Surface, TSIs were reporting to that individual. In 
satellite field offices without an AFSD-Surface, inspectors were 
reporting to the local Assistant Federal Security Director--Inspections 
(AFSD-Inspections). However, the AFSD-Surface at the nearby primary 
field office still mentored and advised all surface inspectors within 
that area, even when they were not under his or her direct command. 
Under this structure (at the time of our report), 55 (37%) of TSIs were 
reporting to an AFSD-Surface, and the remaining 95 (63%) were reporting 
to an aviation-focused AFSD-Inspections.
    At the time, we also observed several problems regarding FSDs' 
involvement with the STSI program that were leading to tension and 
confusion over the program's chain of command. In response to our STSI 
report, TSA stated that it chose this command structure because FSDs 
are better able to use the security network in the area. TSA noted that 
FSDs frequently interact with State and local law enforcement and mass 
transit operators. TSA believes that FSDs understand the 
vulnerabilities and challenges of the mass transit modes ``in their 
backyard.'' In our final report, we maintained that the program 
continued to operate differently than that outlined in a management 
directive that TSA cited.
    In August 2009, TSA informed us that it was in the process of 
conducting a formal independent comprehensive staffing study of the 
entire inspection workforce, to include surface, with the results due 
in the fourth quarter of fiscal year 2009. TSA has not communicated the 
results of its study.
    In September 2009, we learned that TSA began to implement a multi-
phased restructuring of its Office of Security Operations (OSO), Office 
of Compliance, Surface Inspection and Oversight to meet mission demands 
and to better utilize resources. TSA planned to abolish positions, 
establish new positions, realign some functions among positions, and 
reallocate resources among field offices throughout the country. The 
restructuring plan appeared to affect numerous senior staff within the 
surface inspector program.
    In January 2010, TSA reorganized the surface program. We requested 
that TSA update the OIG on any organizational changes that have 
occurred within the surface program to establish a more transparent 
chain of command, and last week TSA forwarded details of the 
reorganization. Specifically, TSA has abolished the position of 
Assistant Federal Security Director--Surface and assigned those 
responsibilities to the position of Supervisory Transportation Security 
Inspector--Surface and to newly created Regional Security Inspectors. 
Supervisory TSIs-Surface report to Assistant Federal Security 
Directors--Inspection, who report to Federal Security Directors.
    We continue to study the reorganization. We remain concerned 
whether these changes will enhance TSA's relationships and 
communication with its surface transportation partners. The presence of 
dedicated Assistant Federal Security Directors--Surface afforded TSA 
recognizable liaisons to transit systems and enabled information 
sharing. Without further review, we do not know whether this plan will 
better enable surface resources to operate adequately and effectively 
in an aviation-centric environment.
    Thank you for the opportunity to discuss these matters. I would be 
pleased to answer any questions you may have.

    Ms. Jackson Lee. Thank you, gentlemen, both of you, for 
your testimony. We look forward to engaging.
    Let me acknowledge and recognize a Member of this 
committee, Mr. Lungren of California.
    I thank the witnesses for their testimony, and I remind 
each Member that he or she will have 5 minutes to question the 
panel. I will now recognize myself for 5 minutes of 
questioning.
    To Mr. Mann, your report made recommendations for how TSA 
could better utilize Assistant Federal Security Directors for 
surface transportation. In fact, the latter part of your 
testimony went directly to this systems change.
    In fact, these AFSDs provide critical information to the 
IG, as I understand it, revealing safety and employee morale 
issues highlighted in your report. In fact, you based a lot of 
your report on some of the vital information that these AFSDs 
gave. Yet months after the report was released, TSA removed 
every sitting AFSD-Surface from their post and terminated the 
position altogether.
    When did TSA inform your office it was eliminating this 
position? Is it fair to say that because your report 
specifically suggests utilizing Surface AFSDs to solve problems 
with the Surface Inspector Program, eliminating this position 
directly seems to contradict your recommendation?
    Might I just add a bit of editorialism and suggest and hope 
that it might not smack of retaliation. If you could in your 
answer give how much you relied upon these AFSDs, whether they 
were an effective source, and what your assessment is on this 
reorganization plan.
    Mr. Mann. Well, we rely heavily on a lot of testimonial 
evidence that we get from all of the components that we talked 
with, and certainly the AFSDs were among several people who 
provided valuable information.
    We have no reason to disbelieve, although we don't take 
sworn testimony from our witnesses and our interviewees--we 
have no reason to disbelieve them. Frequently it has been our 
experience to know that the individuals who are most affected 
typically have the answers and the solutions to what will make 
their situation better. The horsepower that the inspector 
general brings to a report oftentimes gives the organization 
the impetus to actually make a change.
    There is no reason to--I think it would be speculative to 
believe that the reorganization was a retaliatory move.
    Ms. Jackson Lee. Do you have concern with them being 
eliminated in totality? You mentioned it in your testimony. Do 
you have concern?
    Mr. Mann. Well, our bigger concern for us is really the 
reporting chain. We stick by our recommendation that a person 
responsible for surface transportation in headquarters should 
run the Surface Transportation Security Program.
    Ms. Jackson Lee. Let me move to TSA. What became of the 
existing Surface AFDs when their position was eliminated? Did 
they simply take over as new AFSDs for Inspection, and can you 
get us that information for all of the former Surface AFDs as 
to what happened to them? Did they retire? What was the basis?
    Let me ask the OIG to bring some feedback, if you can 
follow up to his point or answer. The feedback from surface 
AFSDs turned out to be very valuable, as I said earlier, in 
bringing a lot of important issues to light. Have you done your 
own independent investigating--you said you don't want to 
speculate--as to what might have been the reason also of the 
change?
    Let me ask Mr. Kair as to what happened to them, and then 
if you did any further investigation in looking at the chart as 
to why it was changed that way.
    Let me go to Mr. Kair first. Thank you.
    Mr. Kair. Thank you, ma'am.
    For the most part, those AFSDs for Surface actually became 
RSIs that had large geographic regions and/or are now directly 
aligned to the headquarters, reporting to the Assistant General 
Manager for Surface there at headquarters.
    What I noted, I was a Federal Security Director prior to my 
current position, and what I noted from the field perspective 
was that the AFSDs, there weren't very many of them, and they 
had large geographic regions, but they were reporting to FSDs 
locally. So it made the lines of authority as they were 
structured there very difficult to operationalize in the field.
    Our new construct is to have those Regional Security 
Inspectors reporting directly to headquarters to provide broad, 
strategic, programmatic oversight and, in the day-to-day 
operational inspection, reporting directly to the Federal 
Security Director, who does have the most relationships locally 
with the local stakeholders.
    Ms. Jackson Lee. So did you, in essence, take the same 
personnel and utilize them in new positions?
    Mr. Kair. I believe we provided line-by-line each of the 
individuals, what happened to them. For the most part, most of 
them actually became Regional Security Inspectors, and they 
were located in the locations with the major Class One 
railroads.
    Ms. Jackson Lee. Mr. Mann, do you want to answer? Did you 
do any follow-up when you saw this new chart as to what they 
had done and whether they had taken into consideration your 
recommendations?
    Mr. Mann. No, ma'am, we have not. We just saw the chart 
last week. But it is our understanding that the former AFSDs 
had to compete for the positions that they now hold.
    Ms. Jackson Lee. Will you do a follow-up and analyze the 
chart, since you just received it recently, to see whether that 
responds to a lot of the concerns that you made in your report?
    Mr. Mann. I am sorry. Say that again, please.
    Ms. Jackson Lee. Will you review the chart to determine 
whether or not it complies with the concerns that you expressed 
in your report?
    Mr. Mann. Of course we will.
    Ms. Jackson Lee. I would like to have this committee 
receive a follow-up report from you on the changes that TSA has 
made.
    Mr. Mann. Yes, ma'am.
    Ms. Jackson Lee. I now yield 5 minutes to the gentleman 
from California, Mr. Lungren.
    Mr. Lungren. Mr. Mann, on the audit evaluation of TSA's 
effectiveness in assisting passenger rail and mass transit 
folks, the stakeholders, in preparing for and responding to 
emergencies, your general assessment is TSA could better 
support the passenger rail agencies by improving its assessment 
of emergency preparedness and response capabilities. You made 
specific recommendations on that, and corrective action was 
taken.
    Are you satisfied with the corrective action taken by TSA 
in that, and if you are partially satisfied rather than fully 
satisfied, what further needs to be done?
    Mr. Mann. Well, we are satisfied with the action that TSA 
has undertaken.
    Mr. Lungren. That is good news. I am glad to hear that.
    The tenor of your comment seems to suggest the real concern 
about the reorganization in the Security Inspector Program, and 
you detailed some of that. What I am trying to figure out is 
whether you just have a specific question about the need for 
this reorganization, or you fundamentally disagree with the 
manner in which they have determined they are going to carry it 
out, or the way it is being implemented?
    Mr. Mann. Well, sir, we have not studied that issue, and as 
I mentioned, without studying it further, we are not certain of 
whether the plan is going to be appropriate, whether it will be 
what the doctor ordered in order to resolve any issues that are 
out there.
    Mr. Lungren. So you don't have any opinion on that?
    Mr. Mann. Not at this time, sir.
    Mr. Lungren. Okay. That is all the questions I have got.
    Ms. Jackson Lee. The gentleman yields back.
    The gentleman from Mississippi, the Chairman of the full 
committee, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    In my comments I talked about to Mr. Kair that there were 
two critical regulations required by the 9/11 Act to address 
front-line employee security training and security assessment, 
and that those regulations are 2 years overdue. Where are we on 
that?
    Mr. Kair. Yes, sir. The new administrator has come in. He 
has expressed that surface transportation, as well as these new 
rules, are a priority for him, and we are in the process of 
working those now, sir.
    Mr. Thompson. Is it your job to do it?
    Mr. Kair. Those regulations would be promulgated from our 
Office of Transportation Sector Network Management. It is a 
different part of TSA, and I would be happy to get more detail 
on that. I do know that it is a priority for TSA, and we are 
working on those as we speak, sir.
    Mr. Thompson. It is a priority, and it is 2 years overdue.
    All right. Do you handle training of inspectors under you?
    Mr. Kair. Yes, sir, I do.
    Mr. Thompson. Can you tell me why surface inspectors have 2 
weeks of mandatory aviation and air cargo training, and only 1 
week of surface training when they are first hired?
    Mr. Kair. Sir, the core curriculum they go through is a 5-
week program. The first 2 weeks of that is general training on 
how to become--you know, what the inspection force actually 
does. They have 1 week of surface inspection, 1 week of 
aviation, 1 week of cargo.
    Then that is also why we were very excited about this new 
training facility in Pueblo. There they will also be receiving 
1 week of basic rail school and 2 weeks of hazardous material 
handling for surface, which is 6 weeks of surface-specific 
training. We are also in the process of developing more 
advanced training for our surface inspectors in this new Pueblo 
training facility.
    Mr. Thompson. So 5 weeks, 6 weeks, how many weeks training?
    Mr. Kair. Right now, sir, they have 6 weeks. A brand new 
surface inspector has 6 weeks of surface-specific training when 
they are hired, and we are in the process of developing more 
advanced training in this Pueblo facility as we go farther.
    Mr. Thompson. Okay. Well, obviously what we have is the old 
model. Can you provide us with the current training 
requirements for your inspectors?
    Mr. Kair. We are happy to do so, sir.
    Mr. Thompson. Are they still required to have mandatory 
aviation and air cargo training?
    Mr. Kair. Yes, sir. They still receive 1 week of aviation 
and 1 week of cargo. The rationale for that is that surface 
inspectors often times are in multimodal facilities, and they 
do need to have at least an understanding of what the 
regulations are in those other modes so that when they do 
identify issues which are of a multimodal nature, they can 
highlight other inspectors and understand when there might be a 
vulnerability.
    Mr. Thompson. For the record, how many inspectors do we 
have?
    Mr. Kair. Right now, sir, we have a little over 200 
inspectors. We are in the process of hiring up to--in the 2010 
budget, we were authorized a little over 400 inspectors. We are 
in the process of hiring them now.
    Mr. Thompson. Can you provide the committee where you are 
along that process?
    Mr. Kair. Yes, sir. In fact, we recently changed the hiring 
process for our inspectors, which I think is a great 
improvement. We now have a new program where it started just 
this spring where we currently have 181 openings on a National 
Register, so that inspectors can apply anywhere for any 
position in the country.
    For those 181 openings, we had 134,000 applications for 
those positions. We are in the process now of completing those 
hiring actions, and we expect that they will be complete this 
fall, and that we will begin the on-boarding process for these 
final positions.
    Mr. Thompson. One of the questions that I am confronted 
with quite a bit, can you provide me the diversity of those 
inspectors----
    Mr. Kair. Yes, sir, we will be happy to provide that.
    Mr. Thompson [continuing]. So that we can look at it?
    Mr. Mann spoke of the change in the structure that had just 
recently been provided to him. Is that something of your doing, 
or was that passed on, in terms of the direction of the 
training of the inspectors and the supervision?
    Mr. Kair. The organizational change that occurred was under 
my watch. That was implemented last January, sir.
    Mr. Thompson. Can you tell me why that change didn't go as 
to what Mr. Mann was talking about versus what you did?
    Mr. Kair. Yes, sir. The concern that we had was that we 
wanted to have the same model that we had for other National 
transportation programs. So, as an example, we have a National 
program in our TSNM division. They handle the policy 
development and the stakeholder outreach for all modes of 
transportation. Then we have Regional Security Inspectors who 
have the corporate interaction and the National plan out there 
for all modes of transportation, if it is airport, airline, air 
cargo. We wanted to replicate that also for the surface areas 
as well. So you have National forward-deployed people who do 
report to headquarters. So it is very consistent, that thinking 
was very inconsistent with what the IG was recommending.
    What we also wanted to ensure was that locally our 
Transportation Security Inspectors also reporting into the 
FSDs, who had the primary responsibility for the stakeholder 
liaison and assessing all vulnerabilities for all modes of 
transportation in their areas of responsibility.
    Mr. Thompson. All right. Can you provide the staff and this 
committee with the study that went into that change or what you 
did to reach that conclusion?
    Mr. Kair. Yes, sir. We would be happy to.
    Mr. Thompson. Mr. Mann, I know you received that kind of 
late in the process, and from the comment that I have 
understood you to say to the Chairwoman, you plan to review 
what was sent to you versus what you had suggested.
    Mr. Mann. Yes, sir, we will. As long as there are clear 
chains of command, that TSIs are not being tasked by multiple 
sources, which was an issue before, and that TSIs are doing 
surface work, not handing out plastic bags at airports and some 
of the other functions that we understand that some of the TSIs 
were actually doing, I think that is a program that the OIG can 
buy into.
    Mr. Thompson. So is it your testimony, Mr. Kair, that they 
are no longer passing out plastic bags and these other items?
    Mr. Kair. Sir, the items Mr. Mann just described was 
exactly the reason that we made the change that we did. I was 
also concerned about lines of authority and clear tasking so 
that we had a National program that everyone understood with 
clear lines of authority to implement those things. So that is 
exactly the reason why we did the reorganization that we did 
last January.
    Mr. Thompson. Well, let me be clear. Now, Mr. Mann, you are 
going to, I guess, provide an addendum to the committee once 
you have had a chance to review what was submitted, or do we 
need to get another request to you to look at it?
    Mr. Mann. Well, a request would be great, sir.
    Mr. Thompson. We will get you that request. Thank you.
    Ms. Jackson Lee. The gentleman yields back.
    Let me have you complete your answer, Mr. Kair and Mr. 
Mann, on, I think, two points that were left unanswered. It is 
my understanding that the new makeover of the AFSD is not in 
the chain of command. Mr. Kair, if you would just clarify that. 
While you do that, let me ask as well as to why did TSA begin 
to implement yet another reorganization of the Surface 
Inspector Program before issuing the overdue rulemakings on 
security training and assessments? The rulemakings will 
significantly impact the role of surface inspectors and likely 
require a corresponding expansion of Federal interaction with 
stakeholders, I would think. You might want to answer that, and 
is TSA putting, in essence, the cart before the horse on this?
    In addition, Mr. Kair, OIG has recommended TSA perform a 
staffing study, which to me seems like a reasonable good 
Government practice. When can we expect TSA to complete a 
staffing study for the Surface Inspector Program, and that 
follows the Chairman's comments about issues dealing with 
diversity?
    First start out, you are not in the same chain of command, 
so it is really apples and oranges and what reasoning went 
behind that, and if you can finish with the other two 
questions. Thank you.
    Mr. Kair. Yes, Madam Chairwoman. First, let me say what I 
am describing, the current organizational structure, was the 
thinking at the time that the change was made. As I mentioned 
in my opening statement, the new administrator has taken the 
stance that he wants to review how we have structured this, so 
there may be other changes pending on this after his full 
review of our organizational chain as well as the role of the 
TSIs out there.
    The way that the program is currently structured after this 
last change is that the Regional Security Inspectors are 
responsible for the strategic look across the country and the 
direct corporate interaction from an inspections standpoint 
with our major stakeholders out there. So they do provide a 
mentorship and oversight of the inspectors out there from a 
programmatic standpoint.
    Tactically the Transportation Security Inspectors in the 
field have the best knowledge of the environment that they are 
working in, and they do report in locally to the AFSD for 
inspection at the local site, who does report to the Federal 
Security Director.
    One of the things that we are working on and including in 
the job tools for the analysis of the job description for our 
AFSDs for Inspection is a much more multimodal requirement for 
filling those positions in the future.
    Ma'am, as to your question why not wait until the 
rulemaking is complete, I thought it was important at the time 
the decision was made that we did have clear lines of 
authority, clear tasking, and a clear understanding of what 
those roles and responsibilities of our inspectors are, and 
also so that our stakeholders knew who that point of contact 
was for any issue they had from a corporate perspective, and 
that we could get those RSIs to provide oversight and 
leadership to our TSIs in the field. So we wanted to go ahead 
and make that change in advance of the rulemaking taking place 
in the future.
    As for the OIG's recommendation for a staffing study, we 
concur with that, and we actually have a third party that is 
just now completing that staffing study. It is due back in to 
us imminently. We will be validating that staffing study and 
will be happy to provide the results of that to the committee.
    Ms. Jackson Lee. We would like to do that.
    I would like to yield to the gentleman from Mississippi.
    Mr. Thompson. Thank you. I will be brief, Madam Chairwoman.
    Staff has provided me with the chain of authority for field 
inspectors. Mr. Mann, is this what you were provided with? Have 
you seen this?
    Mr. Mann. Yes, I have seen that, Chairman.
    Mr. Thompson. Thank you. I am just concerned that these 
Regional Security Inspectors are on the policy side of the 
chart, and their work is over on the field side. Can you just 
help me out right there?
    Mr. Kair. Is that for me, sir?
    Mr. Thompson. Yes.
    Mr. Kair. The idea here, sir, is in the field our TSIs will 
be directly responsible for doing the inspections and report in 
through the FSD the operational chain. But the program itself, 
the policy side, will be delivered by the Regional Security 
Inspectors, and that is actually very consistent with how we 
are currently structured for air cargo, for airports, for 
airlines. The way the program is actually delivered, the policy 
is handled from headquarters, the actual implementation is 
handled from the field, so that the required responsibilities 
for the Federal Security Director for all modes of 
transportation can be fulfilled out in the field.
    Mr. Thompson. Thank you very much.
    Mr. Mann, you will get your letter, I promise you, because 
we need to kind of clear that up. We are just trying to make 
sure that the supervision is there, because ultimately it is 
the people doing the work that really need direction, and if it 
is not clear on the chart who is supervising, who is doing 
things, then you can imagine how those individuals who are 
tasked with trying to actually perform the work, how confused 
it could be with them.
    So, Madam Chairwoman, I will be happy to work with you on 
making sure we get some additional review on this matter.
    I yield back.
    Ms. Jackson Lee. The gentleman yields back. Let me thank 
the Chairman.
    Let me just thank the witnesses and say that this is a 
query that we would want to continue. This organizational chart 
could stand additional vetting. We know that the administrator 
will have the opportunity to review it. Please acknowledge, as 
we acknowledged on the record, that we have an interest in his 
assessment. As the Chairman has indicated, a formal inquiry 
letter will come to the OIG so that we can have a more detailed 
analysis of the changes. I think the change in command, or the 
answer to that, brings about more questions. But we would like 
to be able to allow you to go back and provide us with some of 
your reasoning.
    So, with that being stated for the record, and there being 
no further questions for our first panel, I thank the witnesses 
for appearing before the subcommittee today. The Members of the 
subcommittee may have additional questions for you, and we ask 
that you respond to them expeditiously in writing.
    We now welcome our second panel to the witness table.
    This being the time for our second panel, let me suggest to 
you that we would look forward to a summarizing of your 
statement in a shorter time if you desire so that we can pose 
questions to both of you, and that we would have additional 
time for questions, as we are getting notification that we may 
be voting. The two of you have been very patient, and I am just 
delighted to have you today.
    So I welcome our second panel of witnesses. Our first 
witness is Mr. Thomas Lambert, senior vice president and Chief 
of Police of the Metropolitan Transit Authority of Harris 
County, Texas. At Houston Metro, Chief Lambert is responsible 
for directing and managing police operations, traffic 
management activities, high-occupancy vehicle lane operations, 
and management emergency preparedness and operations, 
intelligent transportation systems projects, and safe--system 
safety.
    Before joining Houston Metro in 1979, Chief Lambert served 
as a senior police officer with the Austin, Texas, Police 
Department.
    I do want to add that as the Houston Metro grows, the 
responsibility of Chief Lambert is expanding. But more 
importantly, since I want to welcome a fellow Houstonian, I 
want the record to note that Chief Lambert collaborates with 
all other police agencies inasmuch as the Metro system, because 
of its bus system, really overlaps county and city 
jurisdiction, more than one county, and he has the 
responsibility from the surface perspective to be the eyes and 
ears and the front line of safety in our community. I think as 
a witness he embodies the issues and concerns we have on 
surface transportation security.
    So you are very welcomed, Mr. Lambert.
    We are delighted to have our second witness, who is Mr. 
Clyde Hart, senior vice president for government affairs and 
policy at the American Bus Association, where he has served in 
that capacity since 2001. The American Bus Association 
represents approximately 1,000 motorcoach and tour companies in 
the United States and Canada.
    Mr. Hart also serves as a member of the Federal Motor 
Carrier Safety Administration's Motor Carrier Safety Advisory 
Committee, which advises the administrator on motor carrier 
safety issues.
    We note that one of the severe inadequacies of homeland 
security is dealing with our bus transportation. We are 
gratified of your long-standing leadership and your presence 
here today.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
their statement, beginning with Chief Lambert.
    Chief Lambert, you are recognized.

 STATEMENT OF THOMAS C. LAMBERT, CHIEF OF POLICE, SENIOR VICE 
PRESIDENT FOR PUBLIC SAFETY, METROPOLITAN TRANSIT AUTHORITY OF 
                      HARRIS COUNTY, TEXAS

    Chief Lambert. Madam Chairwoman and Chairman Thompson, 
thank you for the opportunity to appear today. I am going to be 
brief. I want to highlight several points.
    We are very encouraged by Administrator Pistole's comments 
that he really wants to place greater significance on surface 
transportation security, and we look forward to working with 
him to make sure that we strengthen that opportunity and that 
commitment.
    We want to recognize that the Transportation Security 
Administration has done some very positive things, and I will 
give a couple of examples. The Peer Advisory Group that 
represents transit police chiefs and security directors from 
across the country have had an opportunity for the past several 
years to meet with TSA mass transit representatives monthly in 
conference calls to really focus on issues and problem 
resolution of how we can collectively work together to 
strengthen the safety and security of the transit systems, both 
rail and bus modes, across the country, and we want to 
recognize them for that.
    The Safety and Security Roundtables that TSA and the 
Federal Transit Administration that jointly sponsor, bringing 
in safety police and security chiefs from across the country, 
the top 50 properties, that is a great opportunity to really 
frame issues and problem solve, and so we want to recognize 
them for that.
    But we also think it is very important, the topic today, 
and the Surface Transportation Inspector Program, that we 
believe it has lost some focus, and it has lost some clear 
responsibilities by being associated more with aviation. The 
view is, we believe, it should be focused back on surface, and 
I would take the position perhaps mode-specific, and we would 
look forward to working with TSA.
    But look at mass transit. There is an existing structure 
today under the Mass Transit Division that has already got a 
stakeholder network, the peer group working with stakeholders 
every month to talk about issues. Isn't this an opportunity to 
systematically approach the surface inspector mode-specific to 
help reinforce that across the country? We think that is an 
opportunity. So we look forward to working with the 
administrator as he looks at that.
    We also think that mass transit is an opportunity that does 
not shy away from guidelines, that does not shy away from 
rulemaking. We think this is a great opportunity, but we would 
encourage using the Peer Advisory Group industry practitioners, 
folks that are responsible every day to police and secure our 
transit systems across the country, to be very active 
participants in helping to find practical, reasonable rules to 
make sure they can help us meet those needs.
    Madam Chairwoman, with that I will conclude. We look 
forward to answering any questions you may have.
    [The statement of Chief Lambert follows:]
                Prepared Statement of Thomas C. Lambert
                             July 28, 2010
    Good afternoon Chairwoman Jackson Lee, Ranking Member Dent, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to visit with you today on this very important topic. As a 
mass transit security practitioner, I know all too well the challenges 
of protecting our riding public, employees, and infrastructure.
    Let me begin by stating that we support the efforts of the 
Transportation Security Administration (TSA) and the intended mission 
of the Surface Transportation Security Inspector program. We are also 
encouraged by Administrator John Pistole's commitment to placing mass 
transit security on the same priority as aviation security. We look 
forward to working closely with him as he strengthens TSA's leadership 
in this regard.
    TSA has taken some positive steps in helping transit agencies 
secure their systems. Programs like the Peer Advisory Group and the 
Transit Safety/Security Roundtable are valuable tools that must 
continue to be used. The Peer Advisory Group, made up of Transit Police 
and Security Chiefs, is a great forum for the discussion of transit 
security issues and initiatives. The Roundtable, a joint effort between 
TSA and the Federal Transit Administration (FTA), fosters an open 
exchange of information between Transit Police, Security, and Safety 
Chiefs. Through this forum both the TSA and FTA maintain a partnership 
with their mass transit stakeholders.
    Another important TSA component is the reason we are here today, 
the Surface Transportation Security Inspector program. In this program, 
TSA has committed resources and personnel designed to enhance the 
security of our Nation's surface transportation system. Surface 
Transportation Security Inspectors have a presence today that did not 
previously exist. They act as local liaisons between TSA and transit 
agencies, conduct needed assessments via BASE reviews, and ensure that 
transit agencies follow guidelines and rules established by TSA. While 
we believe the Surface Transportation Security Inspector program to be 
a necessary and vital part of transit security, we would like to offer 
some suggestions for enhancing the program that would increase the 
effectiveness of Surface Transportation Security Inspectors, in our 
view.
    It is our strong opinion that TSA's Mass Transit Division should be 
responsible for managing, directing, and administering the Surface 
Transportation Security Inspector program, especially for Surface 
Inspectors who are responsible for duties related to mass transit. 
Furthermore, the Surface Inspectors should be modal specific and have a 
background in transit security or transit policing along with an 
understanding of their application to a transit environment. The 
current structure, which dictates that Surface Inspectors report to 
Federal Security Directors, is not conducive to a focus on mass transit 
and has fostered a lack of clear and defined roles for Surface 
Transportation Security Inspectors. We feel that by reporting to 
Aviation Management the mission, focus, and effectiveness of Surface 
Inspectors is diluted. Furthermore, we feel that TSA's Mass Transit 
Division is better suited to understand the specific needs and unique 
security environment of mass transit agencies, both bus and rail. 
Additionally, the Mass Transit Division's regular interaction with 
local transit agencies will allow for enhanced partnerships and 
networking that will serve to further strengthen the Surface 
Transportation Security Inspector program. Lastly, we believe that not 
only will the Surface Inspector's mission focus be better served by 
reporting to the Mass Transit Division; their training and 
communication of mass transit security issues throughout TSA will be 
strengthened and be of greater benefit to all stakeholders. A greater 
positive impact on transit security can be achieved by deploying well 
trained and experienced Surface Inspectors who focus specifically on 
mass transit and answer to TSA Headquarters through the Mass Transit 
Division.
    The final area of TSA's efforts I would like to discuss with you 
today is rulemaking. There is no doubt that many industries shy away 
from Federal rulemaking, but here we have a great opportunity to 
establish guidelines and regulations that will strengthen transit 
security Nation-wide while taking into consideration the uniqueness of 
various transit operations across this country. We firmly believe that 
this can be accomplished through an open, honest, and positive dialogue 
between TSA and the transit industry. We cannot stress enough the 
importance of establishing a partnership between TSA and local transit 
police and security chiefs in order to develop rules, regulations, and 
policies that are realistic and have a true positive impact on transit 
security. No place is there a better opportunity for this than TSA's 
Peer Advisory Group. This group of experienced transit police and 
security practitioners can play a vital role in working with TSA to 
develop appropriate rules and regulations that will create a win-win 
situation to enhance the security of our transit systems. Here again 
the value of the Surface Transportation Security Inspector program can 
play a key role by bringing a global transportation security view to 
transit agencies who can then act locally to secure their transit 
systems.
    In closing, I want to reiterate my support for TSA and the mission 
of the Surface Transportation Security Inspector program. Recent events 
continue to illustrate that we face a constant threat from those 
wishing to do us harm. While much of this threat and the security 
resources to respond have been directed at the aviation sector, history 
has clearly shown that mass transit continues to be a target of choice 
for terrorist attacks. We are confident that given the opportunity to 
work together with TSA on these important issues we can build strong 
relationships that will serve to greatly enhance the protection of our 
riding public, employees, and the systems they utilize on a daily 
basis. Thank you again for the opportunity to appear before you today 
and I will gladly answer any questions that you may have.

    Ms. Jackson Lee. I thank you very much for your testimony.
    Now I recognize Mr. Hart.

    STATEMENT OF CLYDE J. HART, JR., SENIOR VICE PRESIDENT, 
    GOVERNMENT AFFAIRS AND POLICY, AMERICAN BUS ASSOCIATION

    Mr. Hart. Thank you, Madam Chairwoman and Chairman 
Thompson. It is an honor to be here.
    First of all, let me say to Chief Lambert, amen. We agree 
with his statement.
    ABA has noted several shortcomings in the way TSA interacts 
with the private bus industry in fulfilling its security 
mission. We do appreciate the difficulty of that mission. But 
we must agree with the conclusions of the GAO report in 
February 2009 when it said industry officials stated that they 
generally desire greater communication with TSA. More 
specifically, the officials noted that they did not fully 
understand TSA's strategy for securing the commercial vehicle 
sector or what roles and responsibilities the agency expected 
from industry.
    The lack of communication between TSA and the industry is 
not limited to the Sector Coordinating Council, which was set 
up by TSA to bring what the Chief notes as the stakeholders 
together so that we can together find our way to manage 
security, but over the years we have noticed that the SCC has 
withered on the vine for lack of attention by the TSA.
    We also, I guess bemoan is a proper word, the lack of 
communication between TSA and the programs that they set up, 
Highway Watch, First Observer, and the Homeland Security 
Information Network.
    A further shortcoming in TSA's approach is the failure to 
complete the Congressionally-mandated threat vulnerability 
assessments for the motorcoach industry. In the 9/11 Act, 
Congress mandated new assessments. In January 2009, the ABA 
worked with TSA officials on the threat scenario evaluation 
portion of this project, and to date there has been no sign 
that the new study is near completion.
    The failure to complete this assessment is particularly 
exasperating to the bus industry, because the Office of 
Management and Budget has for the last 2 years recommended the 
elimination of the Congressionally-approved Bus Security Grant 
program on the ground that any such security funding should 
await the completion of TSA's threat vulnerability assessment.
    As a further irritant, the bus industry is sure that 
evidence of risk exists, but we won't find it until TSA 
finishes their threat vulnerability assessment.
    Finally, ABA is concerned about the duplication of security 
efforts that seems to be going on by TSA and the Federal Motor 
Carriers Safety Administration. ABA perceives that TSA plans to 
conduct security audits with its own cadre of TSIs, yet the 
security audits are not that different from the safety and 
security audits now conducted by the FMCSA. It appears to ABA 
that it would be far more efficient and less expensive if the 
FMCSA were to conduct the security reviews with FMCSA personnel 
who are very familiar with the bus industry rather than to try 
and train new TSI inspectors on a completely new industry.
    That concludes my statement. I would be willing to answer 
any questions anybody has. Thank you.
    [The statement of Mr. Hart follows:]
                Prepared Statement of Clyde J. Hart, Jr.
                             July 28, 2010
    Chairman Jackson Lee and Members of the subcommittee, my name is 
Clyde Hart and I am the Senior Vice President for Government Affairs 
and Policy of the American Bus Association (ABA). First of all, 
Chairman Jackson Lee, the ABA would like to applaud your leadership in 
holding this hearing. Security is our No. 1 concern and we share with 
you your insistence that we all do everything we can to improve the 
security of the transportation system and infrastructure that so many 
of the Nation's citizens depend upon every day.
    The ABA is the trade association for the private over-the-road bus 
and motorcoach industry. The association is comprised of some 3,500 
member organizations and companies including 1,000 motorcoach 
operators. There are approximately 3,800 privately operated motorcoach 
companies in the United States. The ABA motorcoach companies provide 
all manner of transportation services to the Nation. These services 
include scheduled service, charter and tour, commuter services, and 
airport shuttle operations.
    ABA members are large (Greyhound Lines, Coach America domiciled in 
Dallas, Texas; Coach USA, in New Jersey) but other than a handful, are 
mostly small family-owned businesses (Transbridge Lines in Pennsylvania 
and Indian Trails in Michigan with fleet sizes of about 70 
motorcoaches). In fact, the vast majority of bus companies operate 
between two and ten motorcoaches. The motorcoach industry is varied in 
many other ways. For example, some 28,000 motorcoaches provide access 
to all critical infrastructure and key resources in the Nation. In 
addition, there are approximately 1,200 identified station/terminal 
locations for intercity fixed route operations. Over the past several 
years there has also been a rapid growth in intercity on-demand/
curbside pickup service. A recent New York Times article noted with 
cuts in airline flights and ``ridership on trains . . . relatively 
flat'' bus transportation has grown 15% in the last 2 years (``The 
Humble Bus Takes Off''. New York Times, Sunday, July 25, 2010, Travel 
Section, pg. 3). A copy of this article is appended to my testimony.* 
Moreover, these same trends in other transportation modes have fueled 
growth in charter and tour services which continues to provide the 
greatest portion of the industry's annual revenue. Finally, over the 
past decade we have also seen a rapid growth in urban/suburban commuter 
service. What binds all of the bus operators together is our ability 
and expertise in safely and efficiently transporting people throughout 
the Nation. All told in the past year private bus and motorcoach 
operators provided service to 750 million passenger trips, more than 
the domestic airlines. And the industry does all of this with only 0.06 
percent of all Federal funding for transportation.
---------------------------------------------------------------------------
    * This document is also available at http://www.nytimes.com/2010/
07/25/travel/25Prac.html.
---------------------------------------------------------------------------
    As you will imagine, given our responsibilities, safety and 
security is the industry's first priority and ABA strongly supports the 
efforts by Congress to enhance security for bus transportation by 
creating a level playing field, where all bus companies operate under 
consistent security policies and training standards. ABA and its 
members are well aware that globally buses and bus facilities are an 
attractive target for terrorists, as the large number of such attacks 
over the past decades clearly demonstrates. Most recently, in a March 
2010 report entitled: ``Terrorist Attacks on Public Bus Transportation: 
A Preliminary Empirical Analysis'' (MTI Report WP 09-01) the Mineta 
Transportation Institute reported that since 1970 buses and bus 
stations were the targets of more than 51% of the total number of 
attacks (p. 19). We note that in the Mineta Report ``public bus 
transportation'' also includes the facilities, passengers, and 
employees of private motorcoach companies.
    The ABA, as the voice of the private bus industry has been a 
partner in providing security with the Federal Government since 9/11. 
Shortly after the attacks on 9/11 ABA worked with this committee and 
with the Appropriations Committee to implement an Intercity Bus 
Security Grant Program (IBSGP). The IBSGP is a small competitive grant 
program which allows bus operating companies to compete for grants to 
implement security measures to protect their passengers, employees, and 
facilities. Since the fiscal year 2002 this program has seen ABA 
members use these funds, as well as their own money, to provide 
emergency communications between dispatch and emergency first 
responders; allowed bus companies to ``wand'' passengers at larger 
terminals; install cameras in bus staging areas and maintenance 
facilities and install engine ``kill'' devices on motorcoaches. The 
IBSGP, never funded at over $12 million each year, is making a positive 
difference in our ability to protect those who depend on us.
    But while ABA is proud of our accomplishments to date we recognize 
that we have more to do and we are concerned about several aspects of 
TSA's on-going efforts. Shortly after 9/11 transportation security 
efforts were conducted under the authority of the United States 
Department of Transportation (USDOT). One DOT project was a bus 
security threat/vulnerability study conducted by the Volpe 
Transportation Center. While the complete content of the study remains 
classified, it did establish priorities for the hardening of both 
public and private bus transportation facilities as an aid to security. 
With the aid of grants from the IBSGP, ABA developed a detailed bus 
company security training program as well as a company security plan 
and vulnerability assessment template. Both of these tools are now 
under TSA control and are being revised. However, one ABA concern is 
that TSA's revisions are being driven by what is now a 9-year-old 
study.
    Under the 9/11 Act Congress directed TSA to conduct a new threat/
vulnerability assessment. In January 2009 ABA worked with TSA officials 
in the threat scenario evaluation portion of this project. To date 
there is no sign that this new study is near completion. This is the 
study that should be driving the forthcoming TSA regulations and any 
subsequent training or policy changes. I must also note here that for 
the past 2 years the Federal Office of Management and Budget (OMB) has 
recommended eliminating the IBSGP on the ground that there is no 
threat/vulnerability assessment for the motorcoach industry. The ABA 
continues to argue that the need for such a program is great and other 
studies have documented the need for such a program, including the 
GAO's February 2009 report titled, ``Risk-Based Approach Needed to 
Secure the Commercial Vehicle Sector''. And as noted above the Mineta 
report clearly highlights the need for the IBSGP program. Even more 
fundamentally, ABA and its members believe that the evidence of risk to 
the industry is unavailable solely due to the lack of movement by TSA 
to complete the required threat/vulnerability study. TSA must finish 
this study and do so before there is any further action taken on 
motorcoach security regulations or the development of training 
standards. Failure to finish this study before regulations are 
announced will put the industry at risk of always lagging in security 
via ``out of date'' regulations.
    In addition to our request for TSA to complete the threat/
vulnerability study, ABA also has concerns regarding the lack of 
information sharing between TSA and the industry. Until 5 years ago ABA 
and industry operators were kept informed about security issues and 
emergency matters by DOT and then TSA personnel through initiatives and 
communications pathways such as HITRAC, Highway Watch, First Observer 
(which has no motorcoach module) and the Homeland Security Information 
Network (HSIN) to name a few. These and other regular sources of 
information ceased to provide updated security information to the 
motorcoach industry in the middle of 2007 and have not been 
reactivated. Our industry now relies solely on information from the 
Department of Homeland Security Infrastructure Protection private 
sector liaison officer. But it is ABA's belief that it and its members 
still lack vital information and no security program can be sustained 
if it is starved of up-to-date and accurate information. The industry 
does not receive any information on possible threats in which our 
expertise would be useful and perhaps vital. As one example, ABA notes 
a recent incident aboard a private motorcoach in Portsmouth, New 
Hampshire in which TSA specifically informed ABA that the association 
would not receive any information relating to the incident. The reason 
given was that the agency official ``did not believe in broadcasting 
threats''. The industry was left to watch the events unfold on the 
news. The partnership the industry had is now decidedly one-sided and 
ABA believes this turn of events is a detriment to the industry, the 
agency, and the public.
    Finally, ABA is concerned about the duplicative security efforts by 
two separate Federal agencies. Motorcoach companies currently undergo 
safety audits conducted by the Federal Motor Carrier Safety 
Administration (FMCSA) to determine the carriers' fitness to operate. 
The TSA intends to establish a separate, parallel program to conduct 
security audits using its own cadre of TSIs. ABA's concern with this 
proposal is a matter of the proper use of resources. FMCSA and State 
safety inspectors operating under the Motor Carrier Safety Assistance 
Program (MCSAP) conducted some 3,300 so-called compliance reviews on 
motorcoach companies between 2005 and 2008. In addition, it also 
conducts Security Contact Reviews (SCRs). This SCR program was 
previously called Security Sensitivity Visits (SSVs), of which FMCSA 
conducted approximately 30,000 between October 2001 and April 2002. 
These SCRs are primarily directed towards hazardous materials carriers 
that fit certain criteria, but they fundamentally include an assessment 
and verification of a company's security posture. In 2009, FMCSA 
conducted 1,958 security contact reviews. The FMCSA is funded at the 
level of $400 million per year for safety inspections. Furthermore, the 
FMCSA and the States' inspectors are generally very familiar with bus 
companies operations. In sharp contrast, only 15 corporate security 
reviews were conducted by TSA on motorcoach companies from 2005-2008. 
It is safe to say that TSA inspectors, no matter how well trained, will 
not have the level of knowledge of the bus industry as their FMCSA 
colleagues.
    From the ABA's perspective, safety and security are not mutually 
exclusive. Security is a component of safety. ABA made this concern 
known to TSA through comments submitted to the public docket on this 
issue in August of 2009, a copy of those comments are appended to this 
testimony. Also, appended to our comments is a copy of TSA's response 
to our filing. ABA continues to insist that there is no reason why the 
Corporate Security review process cannot be incorporated into the FMCSA 
safety process. It appears to ABA that it would take less funding to 
increase the scope of the FMCSA program than to fund a new separate 
program. In addition, the risks attendant with maintaining a separate 
data base that comes with a separate program is eliminated.
    Since 9/11 the ABA has been in the first rank of the transportation 
industry stakeholders who have put security at the top of the list of 
concerns. Right after 9/11 the ABA incorporated security as a prime 
duty of the ABA's Bus Industry Safety Council (BISC), the ABA funded 
organization that is comprised of the safety and security directors of 
ABA member companies. Our members never forget that they are 
transporting someone's children, grandparents, or breadwinner to work, 
home, medical care or on vacation. We want to do everything we can to 
ensure that our passengers, employees, and citizens stay as safe and 
secure as possible. The ABA wants to assure you, Chairman Jackson Lee, 
and the Members of the committee of our willingness to work with you at 
every turn.
    Thank you and I am happy to answer any questions. 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Ms. Jackson Lee. Let me thank the witnesses for their 
testimony. As we proceed with our questions, I would like to 
remind each of us who are here today that we will have 5 
minutes to question the panel. I would like to start by 
recognizing myself.
    Mr. Hart, you caught us by surprise with that innovative 
suggestion, but that is what Congress is all about, and I look 
forward to questioning you about that.
    Chief Lambert, your transit authority--and we are glad that 
you accepted our invitation, because we are creating a record 
that will allow us to proceed in our efforts to pass surface 
transportation legislation and have the President sign it. Your 
transit authority operates bus and rail systems in a large 
metropolitan area, servicing hundreds of square miles. From 
what you have observed, do you think TSA has adequate resources 
in the field to fulfill the mission of the inspection programs?
    Chief Lambert. No, ma'am, I do not.
    Ms. Jackson Lee. In your thinking of that, you are asking 
TSA--when I say that, by speaking to Congress--that more 
inspectors, more resources over a certain period of time or 
right away needs to be in place?
    Chief Lambert. Madam Chairwoman, I think a couple of things 
need to happen. Again, I think you have to look at it from a 
systems approach. I think really defining roles and 
responsibilities and the reporting relationship is critical. 
Again, this is a challenging job, and so I recognize that and 
fully support TSA in trying to do the right thing. I always 
want to come from that standpoint.
    But I think defining roles and responsibilities, fixing 
organizational reporting relationships, answering whether or 
not it should be mode-specific until you get the opportunity to 
go through cross-training that then can be multimodal in 
approach. Once you do that, then, in my view, you get the 
opportunity to get the relationship of what is the right fit 
and what is the right size, are the staff resources necessary 
to deliver that core business mission. I think it is very 
important to make sure that there is clear understanding of 
that mission and those definitions of roles and 
responsibilities before you really, in my view, can get to what 
those resource needs may be.
    Ms. Jackson Lee. I know that you have a number of National 
organizations that you are involved in. I also know that TSA or 
DHS has included you on a number of discussions, and I would 
hope that it would be TSA, but I would think working with 
surface transportation leaders around the country would be 
helpful as well on how we can further design a security system.
    Chief Lambert. Madam Chairwoman, I agree with you. I 
actually had an opportunity to talk with Mr. Kair before the 
hearing started, and I look forward to having more discussion 
with him as well. I look forward to do so.
    Ms. Jackson Lee. We will focus our attention and maybe 
create opportunities and encourage those opportunities to take 
place.
    Chief Lambert. Thank you, ma'am.
    Ms. Jackson Lee. Unlike airports where security is largely 
Federalized, the local transit and law enforcement agencies 
bear the brunt of implementing effective security programs for 
surface transportation. As we discuss moving forward TSA's 
program, I would like to know what your major resource 
operational challenges are and how TSA can use inspectors with 
proper surface experience and expertise to help you.
    Would you also comment on trying to wire or make 
interoperable your buses in Houston with respect to your bus 
operators and the resources that may be needed in doing that?
    Chief Lambert. Madam Chairwoman, as you know, I would 
always take the position that training front-line employees is 
extremely critical to ensuring the safety and security of 
transit systems. I think we really understand those individuals 
that know the nature of what is out of what place when it is 
out of place is the front-line employee. So TSA in the past did 
a very good job, I believe, in fast-track training, giving an 
opportunity to fund operators, front-line employees that go 
through training, police employees who go through training. We 
are now extending that to maintenance employees that we believe 
should have a role and responsibility in that as well. I would 
hope that TSA would continue to look at fast-track training 
opportunities to get that training out to front-line employees.
    Second, they have been very good in working with us where 
we have clearly set a qualitative competitive project to get 
funding. Cameras on buses, as you know, Madam Chairwoman, give 
us an opportunity to really leverage the technology and really 
a multiplying effect of how that assists boots-on-the-ground in 
securing systems. So we are very supportive of that technology, 
and continuing to look at that and working with them to get 
best practices across the country that can be leveraged out to 
other systems that can be applied and used. So they have been 
very good with that.
    The VIPR Program that exists today came about through the 
leveraging of the Peer Advisory Group members and working 
previously with Administrator Hawley. There were some 
disconnects initially; but at meetings at headquarters, the 
practitioners in the field came to work with TSA to say, this 
is how we think it can work better. John O'Connor, the chief 
from Amtrak, really kind of worked the model that TSA accepted. 
Now most systems across the country are using that model. So 
VIPR has been a very important tool.
    But the real thrust, in my view, is making sure that before 
ultimate strategic decisions are made that are going to be 
applied on the local level, that that global thinking involves 
practitioners in the field that can help influence win/win 
situations that have a direct benefit to securing the traveling 
public. We think that is very important where practitioners 
stay a part of that process.
    Ms. Jackson Lee. Quickly, bus communication.
    Chief Lambert. Interoperable communications. As you know, 
mass transit assists community not just in helping us move 
people safely and regionally through the community every day, 
it is a mobility management tool, it is also an emergency 
management tool.
    In our area we have hurricanes and natural disasters. 
Public transit supports evacuation of community members with 
special needs. They need assistance to get out of their homes 
to safe locations and ultimately to areas of last resort where 
you need to do that. It is critical to have interoperable 
communications, we believe. So we have worked very hard with 
the county structure in our region to make sure that our 
communications system is tied into that interoperable 
communications network, and we will continue to expand upon 
that in the future. We think that is the right approach.
    Ms. Jackson Lee. I thank you very much.
    I am going to yield to the gentleman from Mississippi, the 
Chairman. The gentleman is recognized.
    Mr. Thompson. Thank you, Madam Chairwoman.
    One of the things that is a goal of the committee and, we 
hope, the Department is to make what we do a seamless 
transaction so there is really no difference between aviation, 
mass transit, and all of these other things. But as you know, 
as far as your area, we have been a little slow out of the 
chute, to be quite blunt. But what we want to do now after we 
have put focus on it, we want to do it the right way.
    One of the things that we want to be sure, and I think I 
heard it in your testimony, as an operator, Mr. Lambert, you 
have been involved in discussions, from a planning perspective, 
from TSA's perspective, and I would hope that some of your 
suggestions have been not only solicited, but taken to heart. I 
would hope that your nodding kind of tells me that you are 
comfortable with that process at this point?
    Chief Lambert. Mr. Chairman, again, I want to compliment 
the Mass Transit Division and the Transportation Security 
Network staff that I do most of coordination with. They have 
been a group that has been very open to the industry. They have 
been very open to, and I guess we have a view that there is a 
relationship that has been developed that issues are very 
easily put on the table, and they are challenged, and it is 
okay to disagree. The end result is by having open dialogue and 
honest dialogue and candid dialogue, the end result is you get 
an end resolution that tends to come about for consensus sake. 
That is a good thing, I think. So I want to compliment them for 
that. They have allowed us to participate, and we look forward 
to continuing to do so.
    Mr. Thompson. Mr. Hart, do you want to respond to what 
involvement your trade group has had?
    Mr. Hart. Well, we have tried to work with TSA. We have had 
less success than Chief Lambert with the Sector Coordinating 
Council. It seems that they set it up and then largely forgot 
about us and what we do.
    Let me here agree with Chief Lambert. I think it is 
critically important that the front-line people of any 
organization, be it private bus or mass transit or train--just 
as an aside, my brother is a serving police officer and his 
main mantra always is, ``Read the streets,'' and only the 
person on the streets every day can read the streets and know 
what is there, and that is the frontline personnel of whatever 
industry we are talking about. I think that is where TSA misses 
a bet with the private bus industry is we don't hear from TSA.
    We have suggestions. We have good people. ABA a couple of 
years ago did a Train the Trainers Program, which we could at 
that time under the grant program. That worked very well. We 
got lots of suggestions. We passed them up the line, but we 
don't seem to get any feedback from TSA about next steps, what 
we need to do, what we need to do together. That is missing.
    Mr. Thompson. I guess that is part of what I am trying to 
get at. Is this like an effort every day then with your 
organization, or is there a standard meeting?
    Mr. Hart. There is a standard meeting. Sector Coordinating 
Council is a stood-up organization. It meets regularly. But 
again, we get suggestions, we give suggestions, and then we 
don't seem to hear from TSA.
    Mr. Thompson. I think we can help you a little bit with 
that. If you would, if there is some outstanding issues that 
you have with TSA, please provide that information to us, and 
we will be more than happy to work with you on it.
    Mr. Hart. Thank you.
    Mr. Thompson. The other point I am trying to get at is, 
going forward, do you see a need to do anything else from a 
communications standpoint with TSA?
    Mr. Hart. We have a couple of issues. One, I agree with 
Chief Lambert, we don't think that TSA has near enough 
resources that it needs. I was a little taken aback to realize 
they only had 200 inspectors. That, to me, is amazing. There 
are almost 40,000 motorcoaches alone in the United States. 
There are maybe 150,000 school buses in the United States. It 
is amazing to think that those 200 inspectors working 24/7 
could do the job. So I think that certainly resources are part 
of the problem.
    Also, I think our culture, and maybe the Chief doesn't see 
it as much as we do, where the private industry is seen like, 
well, you guys are an irritant; we will call you when we need 
you. I think that is wrong.
    Chief Lambert. Mr. Chairman, I would like to build off of 
that as well, if I may, because there are opportunities in the 
future. I will use this as a perfect example. I mentioned 
earlier the Peer Advisory Group that TSA mass transit started 
several years ago. We actually had a conference call, which was 
our monthly conference call, today, earlier before the hearing, 
and we got into a discussion about surface transportation 
inspectors. What I found fascinating, one of the chiefs on the 
line made the comment, what is lacking here is the surface 
transportation inspector focus on the things we were talking 
about in the peer group.
    So I think there is an opportunity. They have to be brought 
into the mass transit arena of what role they are going to play 
in supporting mass transit's capability to secure systems. When 
you get into vulnerability assessments and you get into base 
assessments, and then you get into the actions to address those 
problems, they are going to be part of that resolution, and 
they need to be a part of the conversation collectively, where 
are we going from there.
    Mr. Thompson. That is why I think the committee's approach 
is we want to get it right. There is no better way to get it 
right than to deal with the people tasked with the 
responsibility of moving the public and all of that.
    I don't want us, TSA, to just be a top-down, tell people 
what to do, and end of story. I am looking for the back and 
forth and the sharing of ideas to come up with the best ideas. 
I hope, Madam Chairwoman, we can continue to promote this.
    I asked the question about the 200 inspectors because I 
know in my heart of hearts it is not enough. The 400 is not 
enough. So we are still short, and it takes too long even to 
bring 200 more on. I am not certain what the magic is, but we 
will get into that a little later. So we will look at that.
    We don't want the regulatory burden to become a financial 
burden on the industry. To the extent we can do best practices 
and some other things and make that a part of the regimen, I 
think we are going to accomplish what we want.
    I agree with you, the men and women who work for you can 
probably spot things when they are out of place, but we need to 
have them know what they need to do once they see it. So that 
kind of training is, I think, part of the real thing that we 
have to do as far as a panic button or communication or 
something to just let somebody else up the chain know that 
there is a potential problem. So I hear you.
    Madam Chairwoman, I think we are onto something. We need to 
make sure that as we look beyond aviation, we don't set up some 
real issues to prevent the traveling public from being as 
secure with these modes of transportation as we have done with 
aviation.
    Ms. Jackson Lee. Well, let me just say, Mr. Chairman, thank 
you. I think you have framed our marching orders, and I want 
the witnesses to know that you probably provided the most 
provocative testimony. I made the decision to hold this 
hearing, albeit that we are in the midst of several overlapping 
matters to finish up. I wanted this hearing in July so we would 
be able to spend the next weeks looking seriously at your 
testimony and looking at the needs. You have indicated that we 
have to get moving, get going, along with our new 
administrator.
    Mr. Hart, if I can get an answer from you. You said 
something, and I know that you didn't say it cavalierly, but it 
needs to be restated: 40,000 motorcoaches and then add on 
school buses.
    Mr. Hart. One hundred fifty thousand school buses, and I 
can't even guess how many transit buses there are.
    Ms. Jackson Lee. There has to be immediate attention given 
to the number of surface transportation inspectors and the 
recognition that that represents a vulnerable, if you will, 
aspect of our security. Is that not right, Mr. Hart? Do you 
want to comment on that?
    Mr. Hart. Well, I think you are right on, Madam Chairwoman. 
We do need to really get on that issue.
    During the summer, 1,000 tourist buses, tour buses, come to 
the District of Columbia alone every summer carrying 53 
passengers per bus. That is each summer, 1,000. That is just 
one city. We have to find better ways to make sure that the 
infrastructure is protected.
    The grant program that Congress has put together is 
certainly one thing that works very well. We like that. Some of 
my members have done kill switches on their buses with that. 
Some have also instituted communications between emergency 
first responders and dispatch. So there is any number of things 
we need to try and keep trying that work out, and we just need 
to start. We need to start somewhere and go from there.
    Ms. Jackson Lee. Mr. Hart, Chief Lambert, you have given 
this committee--as you well know, this is a record testimony. 
Let me just say we are going to begin to move the process. I 
know you have good relationships with TSA. We are not trying to 
suggest that that is not the case, but we also have a new 
administrator. We are going to look at some institutionalized 
ways of those who engage in surface transportation security to 
have the interaction that is necessary. Certainly, Mr. Hart, on 
the buses, Chief Lambert is looking at a rail system and a 
transit--a bus transit system, but certainly on the buses, we 
know that we have much to do. Needless to say, any of us who 
have read stories about suicide bombers on bus transportation, 
maybe not in the United States, we are not trying to give 
ideas, but it has happened. We need to be conscious, current, 
and ready to address the needs you have expressed.
    Let me thank you gentlemen for your testimony, and 
certainly we want to express the fact that it is valuable 
testimony, and we appreciate the questions that have been 
asked. The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond to 
them expeditiously in writing. I would also suggest if you have 
additional information that you would like to submit to the 
committee, we would welcome it. We would include it as part of 
the record.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 5:59 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Sheila Jackson Lee of Texas for Lee R. Kair
    Question 1a. The OIG report made recommendations for how TSA could 
better utilize Assistant Federal Security Directors for Surface (AFSD-
Surface).\1\ In fact, these AFSDs provided critical information to OIG, 
including tasking and morale issues highlighted in the report. Yet, 
months after the report was released, TSA removed every sitting AFSD-
Surface from their post, and abolished the position altogether.
---------------------------------------------------------------------------
    \1\ Office of Inspector General, Dep't of Homeland Sec., Rep. No. 
OIG-09-24, Effectiveness of TSA's Surface Transportation Security 
Inspectors (2009).
---------------------------------------------------------------------------
    When did TSA inform OIG that it was eliminating this position? Did 
TSA ever provide OIG with any explanation or analysis explaining how 
elimination of the AFSD-Surface position would impact resolution of the 
third recommendation? Please provide all correspondence with OIG 
relating to this matter.
    Answer. The Transportation Security Administration (TSA) informed 
the DHS Office of the Inspector General (OIG) that it eliminated the 
position of Assistant Federal Security Director--Surface (AFSD-S) and 
created the Regional Security Inspector (RSI) for Surface positions in 
its June 2010 update to the OIG report 09-24 issued in February 2009. 
The establishment of the RSI positions occurred in January 2010. 
Therefore, TSA informed OIG of the establishment of the RSI position in 
the first regular progress report following the decision to implement 
the restructuring. As a general business practice, TSA keeps OIG 
updated of its efforts to address OIG report recommendations through 
the regular reporting process and does not necessarily consult with OIG 
prior to implementing internal organizational or staffing changes. The 
elimination of the AFSD-S position, which was done concurrently with 
the creation of RSIs for Surface, created uniformity in field reporting 
lines, while also increasing headquarters oversight. These changes 
directly addressed the thrust of the OIG's third recommendation to 
``[e]liminate practices that undermine efforts to establish a more 
transparent chain of command'' for Transportation Security Inspectors--
Surface (TSIs-S).
                               attachment
Transportation Security Administration (TSA) Response to Office of the 
        Inspector General (OIG) ``Draft Report, Effectiveness of TSA's 
        Surface Transportation Security Inspectors'', September 2008
Progress Report (July 2010)
    TSA generally concurs with and has already taken steps to address 
several of OIG's recommendations. TSA's specific responses to the 
recommendations contained in this report are:
    Recommendation 1.--Assess how Visible Intermodal Prevention and 
Response (VIPR) exercises can better use Transportation Security 
Inspectors (TSI) resources and inspection initiatives, then develop and 
execute a plan to conduct VIPR exercises that integrate inspection 
activities.
    TSA Partially Concurs.--TSA recognizes the importance of 
integrating the TSIs and their unique expertise in mass transit and 
rail into VIPR operations. TSIs routinely engage with their mass 
transit and rail counterparts when conducting Baseline Assessment for 
Security Enhancement (BASE) reviews in mass transit and passenger rail 
and Security Action Item (SAI) reviews in freight rail. TSIs enhance 
the effectiveness of VIPR deployments by sharing their expertise in 
local transit system security issues during VIPR planning and 
deployment. TSA has addressed the potential role of TSIs in the VIPR 
Team Capabilities and Operational Deployment guide, which assists mass 
transit and passenger rail security officials as well as FSDs and FAM 
SACs in the collaborative planning and coordination process for VIPR 
operations.
    TSA agrees that TSI expertise should be used during VIPR planning 
and deployment. Prior to a VIPR operation, TSIs should brief other VIPR 
team members on security vulnerabilities that they have identified 
during the BASE and SAI reviews and interact with mass transit and rail 
personnel. TSA does not concur with the recommendation that TSIs' 
comprehensive inspection be integrated into VIPR operations. Doing so 
would fundamentally alter the nature and meaning of these operations. 
VIPRs are intended to supplement existing security activities at a mass 
transit or passenger rail agency by randomly and unpredictably 
integrating TSA's capabilities for an added deterrent effect.
            Update (August 2009)
    The TSA has taken additional steps to enhance coordination efforts 
specific to TSI-Surface involvement in VIPR operations. The TSA has 
dedicated two TSI-Surface positions to the VIPR Joint Coordination 
Center (JCC) located at the Freedom Center. The primary responsibility 
of this position is to coordinate with OLE/FAMS specifically in the 
reviewing of VIPR Draft Operational Plans (DOPs) that are submitted 
from the field. In doing so, the TSIs ensure that Surface TSIs are 
appropriately integrated into surface-related VIPR operations and 
identifies areas where their expertise would prove beneficial. 
Additionally, the Office of Security Operations (OSO) is in the process 
of identifying additional staff, including at the senior level that 
will be assigned full-time to VIPR Surface operations. This will 
greatly enhance VIPR planning and coordination efforts specifically as 
it pertains to the utilization of OSO resources (includes TSIs).
    With regard to the TSI-Surface role in VIPR operations, the TSA 
continues to identify areas where TSIs can provide added value to the 
team. For example, TSI-Surface has provided Station Profiles, BASE 
reviews, and other assessment-related documentation pertaining to the 
transportation entity where the operation is taking place. This assists 
VIPR team members in enhancing their domain awareness during the 
operation. Additionally, TSIs continue to provide the surface 
transportation subject matter expertise to VIPR teams before and during 
deployments.
            Update (July 2010)
    With the expansion of the FAMS VIPR program from 15 to 25 dedicated 
teams in fiscal year 2010, TSA has assigned one primary senior TSI-
Surface official to each team. Their role is to provide surface 
transportation expertise to the teams that did not previously exist. 
The TSI-Surface involvement varies by location, from acting as the 
designated VIPR coordinator for non-aviation VIPR activity to actively 
participating in the planning and/or execution of VIPR operations. The 
TSI-Surface assignments will be rotated among the surface inspectors at 
each of the 25 TSA dedicated VIPR team locations on a 60- to 90-day 
schedule. This provides for work role expansion for each of the TSIs 
while allowing for practical application of inspector skills and 
training when not assigned to the dedicated VIPR team.
    TSA also has expanded the full-time representation of TSI-Surface 
officials for National-level VIPR planning, coordination, and 
deployment. The full-time TSI-Surface staff is located in the VIPR 
Joint Coordination Center, and includes two TSI-Surface staff and one 
Supervisory TSI-Surface official. These officials join the Office of 
Security Operations VIPR Branch Chief, who was added to the Joint 
Coordination Center in January 2010.
    The addition of these personnel has greatly increased the level of 
surface transportation experience for VIPR operations, and also adds 
important surface transportation perspectives into the planning and 
coordinating VIPR deployments. For example, TSI-Surface staffers 
assigned to dedicated VIPR teams carry out comprehensive security 
surveys of rail stations and verify physical security measures already 
in place. The station profile data are an integral part of an 
initiative currently underway to enhance and improve the VIPR 
deployment planning, operations, and reporting processes.
    Recommendation 2.--Determine how many inspectors are needed to 
perform necessary functions by assessing current and future duties, 
then expand TSI workforce to ensure that each field office has 
sufficient staffing.
    TSA Concurs.--TSA has already developed and implemented a prudent, 
risk-based approach that has produced a flexible, mobile force, 
affording the agency the ability to maximize TSI coverage around the 
country while supplementing many FSD staffs that have no surface 
inspectors. By deploying inspectors to new locations, TSA is crafting a 
surface security inspection and support network that is better able to 
respond to local and regional surface incidents and increased 
assessment work throughout additional cities and regions. Assigning a 
minimum of two inspectors per office ensures the capability to meet 
security assessment, inspection, and support demands while maintaining 
operational safety.
            Update (August 2009)
    The TSA has hired a contractor to perform a formal comprehensive 
staffing study of the entire inspection workforce, to include surface. 
It was initiated in the second quarter of fiscal year 2009 with the 
results due to TSA in the fourth quarter of fiscal year 2009 (they are 
not yet final as of the date of this update). The study has the 
following objectives: (1) Analyze the current placement of inspectors, 
supervisors, and Assistant Federal Security Directors (Inspections and 
Surface) based on location, work volume, and threat; (2) identify 
optimal placement of inspector resources based on current and future 
needs; and (3) determine optimal ratios of inspectors and supervisors 
based on current assignments and predicted future needs. The results of 
the study will allow TSA to better plan future staffing needs and 
deployments of TSI-Surface resources, and will inform future budget 
requests.
    The TSA was appropriated funds in fiscal year 2009 to hire an 
additional fifty TSI-Surface. The TSA continued to use a risk-based 
deployment approach when determining work locations for these 
resources. With the exception of two FTE, which were allocated to open 
one new field office, all other appropriated FTE were used to increase 
staffing existing field office. The TSA currently only has two one-
person offices, with all others having a minimum of two inspectors. 
However, a majority of the field offices (over two-thirds) have three 
or more TSI-Surface assigned.
    To support one- or two-person offices, the STSIP has successfully 
been able to augment resources in smaller offices with resources from 
other larger offices when the need arises. Several of the two-person 
offices are located in close proximity to other larger field offices, 
which can provide prompt support if needed. Additionally, the STSIP has 
a team of TSI-Surface at headquarters that can be deployed to the field 
if necessary.
    The STSIP has also provided training to other TSIs (such as 
Aviation) and FSDs at the Railroad Operations training course in 
Pueblo, CO. While this training does not qualify a TSI-A as a TSI-S, it 
does allow a TSI-A to work alongside a TSI-Surface in the rail 
environment in order to provide additional eyes and ears for safety 
reasons, as well as an added presence for operational security 
purposes. Therefore, should one TSI-Surface from a two-person office 
not be available to perform field work for some reason, a TSI-A that 
has been trained at Pueblo could be used in a back-up capacity and 
support the TSI-S as he/she would have a level of safety orientation to 
the rail environment. However, it has been the guidance of the STSIP 
that non-surface TSIs should not perform field activities in rail 
environments that pose safety concerns without being accompanied by a 
TSI-Surface.
            Update (July 2010)
    All modes in the Compliance Office, including the STSIP, recently 
completed a data analysis in coordination with the Office of Human 
Capital to determine inspector allocation requirements. The data 
analysis is in the final stages of development, with an anticipated 
outcome and corresponding implementation in fiscal year 2011.
    The total number of inspectors needed to carry out and enforce new 
regulations that will be established as a result of 9/11 Act 
requirements is also evaluated in conjunction with the development of 
the Notice of Proposed Rule-makings (NPRMs), which are currently in 
process. Data such as number and locations of entities covered and the 
depth of the regulatory requirements is a driving factor in determining 
the inspection numbers required to ensure compliance. Once the NPRMs 
are published, a final request for additional inspector positions based 
on the data analysis will be forwarded through official budget 
channels.
    In anticipation of the need to train new inspectors, TSA has 
partnered with other Federal agencies and stakeholders to obtain buses, 
rail cars, and build infrastructure at the Surface Transportation 
Security Training Center (STSTC), located at the Transportation 
Technology Center in Pueblo, Colorado. TSA has assigned five personnel 
to develop the curriculum and training material for the STSTC. TSA will 
be well-positioned to determine the number of inspectors required using 
the model and provide training once the final rule is established.
    Lastly, with the additional surface inspector positions allocated 
in fiscal year 2010, there will no longer be any field offices that are 
staffed with only one inspector. All offices will be staffed with a 
minimum of two.
    Recommendation 3.--Place the Transportation Security Inspectors--
Surface under the direct authority of a TSA headquarters official such 
as the Office of Security Operations' Assistant General Manager for 
Compliance.
    TSA Does Not Concur.--As stated in TSA's response to the DHS OIG 
report titled Transportation Security Administration's Administration 
and Coordination of Mass Transit Security Programs and as described in 
this response, TSA does not agree that the present TSI command 
structure inhibits TSI effectiveness. The reporting line of all TSIs in 
field assignments is to designated FSDs who report to the General 
Manager for Field Operations, Office of Security Operations (OSO). The 
FSDs are the operational field component of OSO and are charged with 
the implementation of all field operational activities. TSA has chosen 
this command structure because FSDs are better equipped to use the 
security network in their area. FSDs frequently interact with State and 
local law enforcement and mass transit operators. They understand the 
vulnerabilities and challenges of the mass transit modes in their 
backyard. TSA has adopted this network decision-making model in all 
modes of transportation, including its other inspection divisions in 
aviation and cargo. This approach recognizes the need for regional and 
localized strategies to enhance prevention, detection, response, and 
recovery efforts based on accurate and thorough domain awareness, 
strong professional networks and relationships with local security 
officials, and consistent and clear reporting lines to the local FSD.
    OSO's Office of Compliance oversees the Surface Transportation 
Security Inspection Program (STSIP) and directs the work plan, 
training, and other aspects of field inspector activity. The STSIP 
office informs FSDs of TSI priorities and programs in several ways, 
including dissemination of an annual work plan written by the STSIP in 
close coordination with Office of Transportation Security Network 
Management, and via written directives and communications distributed 
through the OSO Leveraging Information, Networks, and Communications 
(LINC) system (formerly Net Hub). Additionally, FSDs are kept informed 
of key activities and programs of the TSIs Nationally by a written 
report issued weekly by the STSIP office. AFSDs-Surface participate in 
weekly or bi-weekly National conference calls hosted by the STSIP 
office and informs FSDs within their respective regions of new 
processes in STSIP programs. AFSDs-Surface and local lead TSIs are 
required to attend FSD meetings and routinely report STSIP activities 
to FSDs. In summary, the reporting lines are clear, as detailed in 
Operational Directive 400-54-3 and published specifically for this 
purpose, and the flow of information from Headquarters to FSDs is 
efficient and comprehensive on the priority activities of TSIs-Surface 
in security inspections, assessments, and support.
            Update (August 2009)
    The TSA continues to enhance the communication and coordination 
between the STSIP and the FSD and their staffs in the field. The STSIP 
held a series of twelve regional training sessions from December 2008 
through May of 2009. The regional training sessions were held for the 
FSD inspection staffs which include TSI-Surface, AFSD-Surface, as well 
as Assistant Federal Security Directors for Inspections (AFSD-Is) that 
have TSI-Surface assigned to them. The sessions instructed attendees on 
the latest STSIP programs and initiatives, including the Highway 
Corporate Security Review (CSR) process, the STSIP Assessment Tool, and 
49 CFR Part 1580 (recently issued rail security regulations), among 
other topics.
    Additionally, the TSA continues to send FSDs to the Executive 
Railroad Operations training course located at the Transportation 
Technology Center in Pueblo, CO. FSDs that have TSI-Surface assigned to 
them must attend the course. The course provides FSDs with a detailed 
overview of STSIP functions, including field activities and performance 
goals, as well as general background on the rail industry and safety. 
Seventy-nine FSDs attended this training from 2007 through 2008. At the 
conclusion of the August session of the Executive Railroad Operations 
training, TSA will have trained all FSDs and Deputy FSDs at the SES 
level, as well as all non-SES level FSDs who work in the twenty largest 
rail/mass transit environments Nation-wide.
    With regard to OIG's concern regarding the command structure and 
specifically the dual tasking of TSI-Surface from STSIP and FSDs, it 
should be clarified that the STSIP does not directly task FSDs or TSIs 
in the field. Formal requests for field activity originating from the 
STSIP are routed up through OSO leadership and are generally 
disseminated from leadership to FSDs through the OSO Communications 
Network (formerly the Leveraging Information, Networks, and 
Communication (LINC) and NETHUB). The STSIP holds monthly 
teleconferences in an effort to enhance communication with FSDs and 
Surface Inspector Supervisors. The STSIP continues to communicate 
significant program information through FSDs to the field via its 
monthly reports as well as the Office of Compliance's periodic 
conference calls.
    OSO has also taken steps to ensure that significant policy or 
program decisions pertaining to the TSI-Surface workforce are generally 
funneled through the FSD Advisory Council for feedback and 
recommendation. The FSD Advisory Council ensures that the FSDs are 
fully represented in and able to contribute to the decision-making 
process on such issues.
    Lastly, AFSD-Surface, as well as representatives from the STSIP at 
headquarters, continue to regularly attend regional FSD conferences to 
brief FSDs on the latest developments and programs relating to the TSI-
Surface workforce and its mission.
    Recommendation 3 (Revised).--Eliminate practices that undermine 
efforts to establish a more transparent chain of command. Instruct the 
STSIP office to direct new policies and actions to FSDs for 
implementation and require FSDs to solicit comments from AFSDs prior to 
hiring surface inspectors.
    (Indicate TSA Concurs: or TSA Non-concurs:) If we non-concur, 
provide reasons why? If we concur, provide what we will do to 
implement.
            June 2010 Update
    Response.--TSA Partially Concurs. Since issuance of this revised 
recommendation in February 2009, the TSA has taken steps to establish a 
more transparent chain of command. In January 2010, the TSA realigned 
reporting structure of Transportation Security Inspectors--Surface 
(TSI-S) in the field, placing them under the supervision of the local 
Assistant Federal Security Director for Inspections (AFSD-I) that 
reports to the local Federal Security Director (FSD). This resulted in 
a greater uniformity and clarity in reporting lines from location to 
location, and further aligned the TSI-Surface position with TSA's 
overall field organizational structure. The TSA eliminated the 
Assistant Federal Security Director for Surface (AFSD-Surface) 
position, which was source of reporting line ambiguity as some TSI-
Surface reported to and AFSD-Surface, while others reported to an AFSD-
I. Concurrent with abolishing the AFSD-Surface position, the TSA 
created the Regional Security Inspector--Surface (RSI-Surface) 
position. The RSIs are charged with ensuring consistent and effective 
regional implementation of surface inspection programs.
    The TSA does not concur with OIG's recommendation that the STSIP 
office direct new policies to FSDs for implementation and require FSDs 
to solicit comments from AFSDs prior to hiring surface inspectors. The 
STSIP office does not direct FSD policy, and doing so would not be 
consistent with agency protocols in place. If such an action were to be 
performed, generally direction would come from the General Manager for 
Field Operations (with support provided by the General Manager, 
Compliance Programs) within the Office of Security Operations. 
Additionally, the FSD establishes local hiring protocols for his/her 
area as the senior TSA executive in charge of transportation security. 
Requiring the FSD to solicit comments from a subordinate AFSD is 
unnecessary and inappropriate. Often the local AFSD is already involved 
in the hiring of local inspectors, so generally speaking this 
recommendation is superfluous. (OSO/Compliance--Carl Ciccarello and Dan 
Tragesser)

    Question 1b. Please explain why TSA abolished the position in 
direct contradiction to the OIG's recommendations.
    Answer. While TSA did not concur fully with the OIG recommendation, 
TSA did agree that a more transparent chain of command was needed for 
TSIs-S. As a result, TSA strongly considered the OIG recommendation in 
establishing the RSI positions. The RSI position for the surface 
program is more independent with strengthened modal expertise, compared 
to the former AFSD-S position. Eliminating the AFSD-S position and 
concurrently creating RSIs for Surface also produced uniformity in 
field reporting lines of TSIs-S, eliminated areas of confusion in TSI-S 
tasking, and increased headquarters oversight of field surface 
inspection activities. By establishing the position with a direct 
reporting line to headquarters and a dotted line to the Area Directors 
(ADs), the RSI for Surface has greater influence over the surface 
program in his/her geographic Area of Responsibility (AOR). TSA 
believes this new organizational structure addresses the core concern 
of OIG's third recommendation rather than contradicting it.
    Question 1c. Please indicate what happened to each of the existing 
Surface AFSDs when the position was eliminated, including whether each 
individual assumed the duties and title of the new AFSD-Inspections 
position; had to re-apply for a different position; retired, early or 
otherwise; was demoted in pay band, seniority, or responsibility; or 
any other process or change each employee has undergone due to the 
abolishment of the position.
    Answer.

----------------------------------------------------------------------------------------------------------------
 Former AFSDs-Surface (12 total)       Employment Action        Responsibility Change           New Title
----------------------------------------------------------------------------------------------------------------
AFSD-Surface No. 1...............  N/A--Retired.............  N/A.....................  N/A.
AFSD-Surface No. 2...............  Demoted in Pay Band--K to  Lost regional             Supervisory TSI (STSI)
                                    J (retained pay).          responsibilities.         with local
                                                                                         responsibilities.
AFSD-Surface No. 3...............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, Northeast.
AFSD-Surface No. 4...............  Demoted in Pay Band--K to  Lost regional             Supervisory TSI (STSI)
                                    J (retained pay).          responsibilities.         with local
                                                                                         responsibilities.
AFSD-Surface No. 5...............  Remained K Band..........  RSI National Coordinator  RSI National
                                                                                         Coordinator.
AFSD-Surface No. 6...............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, Southeast.
AFSD-Surface No. 7...............  Transfer/Remained K Band.  Supervise TSI-Surface at  VIPR JCC Supervisor.
                                                               Joint Coordination
                                                               Center (JCC).
AFSD-Surface No. 8...............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, North
                                                                                         Central, resigning 9/
                                                                                         2010.
AFSD-Surface No. 9...............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, South
                                                                                         Central.
AFSD-Surface No. 10..............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, Northwest.
AFSD-Surface No. 11..............  Remained J Band (was only  Lost regional             Voluntarily accepted an
                                    J-Band AFSD-Surface).      responsibilities.         I Band TSI-Surface
                                                                                         Position at new
                                                                                         Location.
AFSD-Surface No. 12..............  Remained K Band..........  RSI w/ regional           Regional Security
                                                               responsibilities.         Inspector, Southwest.
----------------------------------------------------------------------------------------------------------------
Note: A selection board was convened, resumes were reviewed, and interviews were conducted for the RSI
  positions. Only former AFSD-S personnel were eligible for the RSI positions, with the exception of AFSD-S No.
  11 who was not eligible.

    Question 2a. With respect to the second recommendation in the OIG 
report, TSA stated that it has developed and implemented a prudent, 
risk-based approach that has produced a flexible, mobile force, 
affording the agency the ability to maximize TSI coverage around the 
country while supplementing many FSD staffs that have no surface 
inspectors' in the Management Comments to the Draft Report.\2\
---------------------------------------------------------------------------
    \2\ Id. at 31.
---------------------------------------------------------------------------
    Provide a detailed description of this approach, including an 
explanation of how this approach accounts for each of the three 
elements of risk threat, vulnerability, and consequence in order to 
enhance surface transportation security, and specifically how this 
approach satisfies or is consistent with subsections (b), (c), (d), 
(g), and (h) of section 1304 of the Implementing Recommendations of the 
9/11 Commission Act of 2007 (9/11 Act).\3\
---------------------------------------------------------------------------
    \3\ 6 U.S.C.  1113(b)-(d), (g)-(h).
---------------------------------------------------------------------------
    Answer. The Transportation Security Administration's (TSA's) 
primary approach for allocating Transportation Security Inspectors--
Surface (TSIs-S) and opening new surface offices includes a scoring 
system to prioritize office openings. At times, other qualitative 
evidence is factored in to better serve surface transportation 
security, based on geographic division of Areas of Responsibility 
(AORs). While there are not enough resources to assign surface 
inspectors to every Federal Security Director (FSD), Area Directors 
(ADs) are directly involved in working AOR issues to ensure complete 
oversight of regulated parties and comprehensive Visible Intermodal 
Prevention and Response (VIPR) coverage. The approach considers four 
key factors before assigning a final score:
    1. Location within a High Threat Urban Area (HTUA);
    2. Top 100 mass transit/passenger rail systems within the home 
        city;
    3. Toxic Inhalation Hazardous (TIH) materials traffic flow within 
        that city/airport location; and
    4. City/airport located in the Northeast Corridor (NEC).
    Using the application of these factors, as of September 2010 TSA is 
adding the additional 179 Transportation Security Inspectors (TSIs) 
appropriate in fiscal year 2010 to offices throughout the country. The 
additional positions will allow TSA to expand from 54 to 67 locations 
Nation-wide.
    Additionally, all programs in the TSA Office of Security Operations 
Compliance Office, including the Surface Transportation Security 
Inspector Program (STSIP), recently completed a data analysis in 
coordination with the TSA Office of Human Capital to determine 
inspector allocation requirements. The data analysis is in the final 
stages of development, with an anticipated outcome and corresponding 
implementation in fiscal year 2011. Careful consideration also is given 
to workload demand. TSA evaluates and appropriately balances both risk 
and workload demand in making resource allocation decisions.
    This is consistent with section 1304 as inspectors have been 
primarily positioned in locations throughout the country that optimizes 
the agency's ability to directly support the surface transportation 
security mission as defined in 1304(b) and under the authorities 
outlined in 1304(c). With regards to sections 1304(g) and 1304(h) 
(coordination and consultation), the TSA has periodically consulted 
with mass transit and freight railroad modes, which are inspected under 
49 Code of Federal Regulations (CFR) 1580. TSA holds monthly conference 
calls with transit police and security officials who represent the 
broader transit security community on the TSA Mass Transit Peer 
Advisory Group. TSA also provides forum discussions and training to the 
mass transit industry twice yearly as part of the National Transit 
Security Round Table. Further consultation is conducted at periodic 
meetings of the Transportation Sector Coordinating Council and at 
regional Transportation Security Grant Working Group meetings. From 
time to time, the duties, responsibilities, authorities, and mission of 
the Transportation Security Inspectors--Surface (TSIs-S) and the 
strategies to improve transportation security to ensure compliance with 
transportation security requirements are discussed during these 
activities. In the freight rail environment, the RSIs are specifically 
assigned as corporate liaisons to all Class I and large regional 
railroad stakeholders, which promotes a Nationally balanced approach to 
regulatory compliance activities and operational issues for large 
railroad corporate entities.
    Question 2b. Provide a list and description of all risk 
assessments, evaluations, consultants, or other formal processes used 
by TSA to determine that a flexible, mobile force, affording the agency 
the ability to maximize TSI coverage around the country while 
supplementing many FSD staffs that have no surface inspectors, was the 
best approach to strengthening security of surface transportation 
systems under section 1304 of the 9/11 Act.\4\
---------------------------------------------------------------------------
    \4\ U.S.C.  1113. See  1113(h).
---------------------------------------------------------------------------
    Answer. The Transportation Security Administration's (TSA's) 
primary approach for allocating Transportation Security Inspectors--
Surface (TSIs-S) and opening new surface offices includes a risk-based 
scoring system to prioritize office openings. At times, other 
qualitative evidence is factored in to better serve surface 
transportation security, based on geographic division of Areas of 
Responsibility (AORs). While there are not enough resources to assign 
surface inspectors to every Federal Security Director (FSD), Area 
Directors (ADs) are directly involved in working AOR issues to ensure 
complete oversight of regulated parties and comprehensive Visible 
Intermodal Prevention and Response (VIPR) coverage. The approach 
considers four key factors before assigning a final score:
    1. Location within a High Threat Urban Area (HTUA);
    2. Top 100 mass transit/passenger rail systems within the home 
        city;
    3. Toxic Inhalation Hazardous (TIH) materials traffic flow within 
        that city/airport location; and
    4. City/airport located in the Northeast Corridor (NEC).
    Question 3a. Please provide a detailed explanation, including any 
relevant data collected through stakeholder outreach and other 
appropriate mechanisms, of why TSA did not concur with the third OIG 
recommendation, what sources or processes were used to determine that 
TSA did not concur with the third recommendation, and the extent to 
which TSA continues not to concur with the third recommendation.
    Include a detailed explanation of the grounds on which TSA based 
the decision to designate surface inspectors to report to Federal 
Security Directors (FSDs), and state clearly whether any stakeholder 
outreach or a comprehensive, risk-based analysis was conducted prior to 
that decision.
    Answer. The OIG's third recommendation (as referenced above) was to 
``Place the Transportation Security Inspectors--Surface under the 
direct authority of a TSA headquarters official such as the Office of 
Security Operations Assistant General Manager for Compliance.'' The 
Transportation Security Administration (TSA) considered the placement 
of surface inspectors and decided the best approach to placement of 
those assets was under the Federal Security Directors (FSDs). The FSDs 
in the field are responsible for implementation of all operational 
activities across all modes of transportation. TSA decided to integrate 
surface inspectors into this command structure because FSDs are 
equipped to leverage the security network in their areas. Additionally, 
such a structure allows for maximum efficiencies and reduces 
duplication of effort and ambiguity and overlap in roles and 
responsibilities. The organization maintains strong National oversight 
through the headquarters Office of Compliance and Regional Security 
Inspector (RSI) positions, but allows local flexibility to address 
local security concerns. This allows TSA to ensure the mission is 
completed in the most effective and fiscally responsible manner, with 
the greatest security benefit.
    Question 3b. Include a detailed analysis of why FSDs are better 
equipped to use the security network in their area for the purpose of 
strengthening security of surface transportation systems, and why that 
analysis is the best approach to carrying out section 1304 of the 9/11 
Act.\5\
---------------------------------------------------------------------------
    \5\ Id.
---------------------------------------------------------------------------
    Answer. TSA has chosen this command structure because FSDs are 
better equipped to leverage the security network in their areas. FSDs 
frequently interact with State and local law enforcement and mass 
transit operators and understand the vulnerabilities and challenges of 
the surface transportation modes in their areas of responsibility. TSA 
has adopted this network decision-making model in all modes of 
transportation, including its other inspection divisions in aviation 
and cargo. This approach recognizes the need for regional and localized 
strategies to enhance prevention, detection, response, and recovery 
efforts across the supply chain based on accurate and thorough domain 
awareness, strong professional networks and relationships with local 
security officials, and consistent and clear reporting lines to the 
local FSD. The organization maintains strong National oversight through 
the headquarters Office of Compliance and Regional Security Inspector 
(RSI) positions, but allows local flexibility to address local security 
concerns. This allows TSA to ensure the mission is completed in the 
most effective, efficient, and fiscally responsible manner, and 
provides greater security benefits.
    Question 3c. Indicate and elaborate on any evaluation programs or 
assessment mechanisms conducted by TSA or another component of DHS that 
have been implemented to ensure that surface inspectors are hired, 
trained, deployed, and managed to the greatest extent possible in a 
manner consistent with section 1304 of the 
9/11 Act.\6\
---------------------------------------------------------------------------
    \6\ Id.
---------------------------------------------------------------------------
    Answer. Since the program's inception, the STSIP's training program 
has been one of the agency's training cornerstones. Using the 
Department of Transportation's (DOT's) Transportation Safety Institute 
(TSI) and the developing the Transportation Security Administration 
(TSA) Core inspector class, the training program has remained steady 
and industry-current. Recently, TSA opened the new Surface 
Transportation Training Center in Pueblo, Colorado. Two rail safety 
courses are taught at the new facility and TSA is developing courses in 
Advanced Rail Operations and Highway Motor Carriers Operations. This 
new facility will allow TSA to ensure its inspector workforce is well-
trained and remains industry-current for years to come.
    Question 4. How does the new organizational structure for the STSIP 
that no longer aligns the inspection program and its chain of command 
with the surface program offices ensure that the deployment of the 
surface inspectors, as well as the information and findings they 
obtain, are linked to the needs of and reported back to the respective 
surface program offices? Please explain fully and be specific.
    Answer. To provide more headquarters-driven oversight of the 
Surface Transportation Security Inspection Program (STSIP), surface 
resources were realigned in January 2010, establishing new Regional 
Security Inspector (RSI) positions for surface. The RSIs report 
directly to the Surface Inspection and Program Oversight branch within 
the Office of Compliance at headquarters, instead of Federal Security 
Directors (FSDs). TSA has adopted this network decision-making model in 
all modes of transportation, including its other inspection divisions 
in aviation and cargo, with headquarters providing the policy, 
guidance, and oversight, and with implementation in the field. There is 
one headquarters RSI Surface Coordinator and six field Surface RSIs, 
who are positioned throughout the country to more easily provide on-
site oversight of surface inspection, assessment, and operational 
activities. RSIs review inspection reports in the Performance and 
Results Information System (PARIS) in an effort to track field office 
performance in meeting work plan objectives, as well as to address any 
inconsistencies or quality control issues. RSIs are also responsible 
for compiling formal Compliance Oversight Reports for airport 
locations, which provide comprehensive feedback to surface inspectors 
and their supervisors on issues such as work plan accomplishment, 
quality control, and overall problem areas that need to be addressed. 
The RSIs are also assigned as corporate liaisons to all Class I and 
large regional railroads, which promotes a Nationally balanced approach 
to regulatory compliance activities and operational issues for large 
railroad corporate entities.
    Question 5a. Surface transportation stakeholders have raised 
concerns about the lack of consistency and standardization in STSIP 
field activities, particularly with respect to regulatory 
interpretation and enforcement. TSA has stated the Regional Security 
Inspectors (RSIs) appointed for the freight railroads will address this 
problem.
    Describe how often and in what form surface transportation 
stakeholders have been consulted about TSA's Surface Transportation 
Security Inspection Program (STSIP), and explain fully whether that 
record of consultation is consistent with the consultation requirement 
in section 1304 of the 9/11 Act.\7\
---------------------------------------------------------------------------
    \7\ Id.  1113(h).
---------------------------------------------------------------------------
    Answer. In accordance with Section 1304(h) of the 9/11 Act, the 
Transportation Security Administration (TSA) has periodically consulted 
with mass transit and freight railroad modes, which are inspected under 
49 Code of Federal Regulations (CFR) 1580. TSA holds monthly conference 
calls with transit police and security officials who represent the 
broader transit security community on the TSA Mass Transit Peer 
Advisory Group. TSA also provides forum discussions and training to the 
mass transit industry twice yearly as part of the National Transit 
Security Round Table. Further consultation is conducted at periodic 
meetings of the Transportation Sector Coordinating Council and at 
regional Transportation Security Grant Working Group meetings. From 
time to time, the duties, responsibilities, authorities, and mission of 
the Transportation Security Inspectors--Surface (TSIs-S) and the 
strategies to improve transportation security to ensure compliance with 
transportation security requirements are discussed during these 
activities. In the freight rail environment, the RSIs are specifically 
assigned as corporate liaisons to all Class I and large regional 
railroad stakeholders, which promotes a Nationally-balanced approach to 
regulatory compliance activities and operational issues for large 
railroad corporate entities.
    Question 5b. Describe how TSA has deployed surface inspectors in 
order to carry out the statutory requirement that surface inspectors 
shall be used to assist surface transportation owners, agencies, 
carriers, and operators in strengthening security, other than through 
compliance, inspection, or enforcement activities.\8\
---------------------------------------------------------------------------
    \8\ Id.  1113(b).
---------------------------------------------------------------------------
    Answer. A large portion of surface inspector duties are focused on 
conducting assessments that are not regulatory in nature. These 
assessments include conducting in-depth Baseline Assessment for 
Security Enhancement (BASE) reviews with the largest mass transit 
agencies in the Nation. It also involves risk reduction surveys in the 
freight rail environment which promote risk reduction of intentional 
Toxic Inhalation Hazardous (TIH) material releases within major urban 
areas. Other non-regulatory assessments include corporate security 
reviews of trucking companies that transport hazardous materials, 
corridor assessments of the TIH risks within major urban areas, and of 
course, Visible Intermodal Prevention and Response (VIPR) activity in 
all modes of transportation.
    The Transportation Security Administration's (TSA's) primary 
approach for allocating Transportation Security Inspectors--Surface 
(TSIs-S) and opening new surface offices includes a risk-based scoring 
system to prioritize office openings. At times, other qualitative 
evidence is factored in to better serve surface transportation 
security, based on geographic division of Areas of Responsibility 
(AORs). While there are not enough resources to assign surface 
inspectors to every Federal Security Director (FSD), Area Directors 
(ADs) are directly involved in working AOR issues to ensure complete 
oversight of regulated parties and comprehensive Visible Intermodal 
Prevention and Response (VIPR) coverage. The approach considers four 
key factors before assigning a final score:
    1. Location within a High Threat Urban Area (HTUA);
    2. Top 100 mass transit/passenger rail systems within the home 
        city;
    3. Toxic Inhalation Hazardous (TIH) materials traffic flow within 
        that city/airport location; and
    4. City/airport located in the Northeast Corridor (NEC).
    Question 5c. What authority do RSIs have over Area Directors and 
Federal Security Directors (FSDs)? Be specific about the reporting 
relationship between RSIs and each of the two field directors 
positions, as well as how each relationship fits into the broader 
context of the Office of Security Operations (OSO) at TSA; and include 
organizational charts depicting each relationship and OSO context.
    Answer. RSIs do not have authority over ADs or FSDs. As part of 
their duties, RSIs are responsible for providing day to day support to 
the ADs. RSIs are responsible for supporting their assigned regions and 
for a variety of other assignments and activities as directed by the 
ADs, including activities within FSDs' staffs to build multimodal 
security networks that maximize transportation security and incident-
response capabilities. The following chart provides an overview of the 
reporting structure of the RSIs, FSDs, and ADs within the Office of 
Security Operations (OSO). The RSIs are also assigned as corporate 
liaisons to all Class I and large regional railroads, which promotes a 
Nationally balanced approach to regulatory compliance activities and 
operational issues for large railroad corporate entities. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 5d. If RSIs do not have authority over Area Directors or 
FSDs, how will they be able to address consistency problems effectively 
from outside of the STSIP chain of command in the field?
    Answer. As part of their regular regional oversight duties, RSIs 
are responsible for monitoring surface inspection field activities at 
airports within their Area of Responsibility and for identifying 
problems of consistency. RSIs then report such issues to Area 
Directors, Federal Security Directors, and the Surface Inspection and 
Program Oversight office, as appropriate, for resolution.
    Question 5e. Have RSIs been appointed for Amtrak and the public 
transportation systems for metropolitan areas designated as ``Tier 1'' 
by the Transit Security Grant Program (TSGP)? If not, describe the 
process by which it was determined that Amtrak and the highest-risk 
public transportation systems would not be assigned RSIs, and explain 
fully the grounds on which that determination was made.
    Answer. A new RSI position for Amtrak has been established and TSA 
is in the process of filling it as of September 2010. TSA recognizes 
the need for such a position due to the large geographical area in 
which Amtrak operates. TSA also realizes the benefits that the new RSI 
position holds, and is evaluating options for potential future 
expansion of the program. However, it has not yet determined if TSA 
will expand the program to include designating RSIs for Tier 1 transit 
agencies.
    Question 5f. Please provide a map or chart indicating the number of 
RSI positions currently deployed by TSA and the geographical region or 
area of responsibility covered by each position.
    Answer. There are currently seven RSIs for Surface; six of these 
positions are in the field with regional oversight, and one is at 
headquarters as the RSI Coordinator. One additional RSI for Amtrak is 
in the process of being established, which will bring the total number 
to eight. See the following chart:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 6a. Please provide all documents, directives, guidance, 
memoranda, slides, and other materials distributed or presented to TSA 
employees relating to the development and implementation of ``TSI 
Evolution,'' as well as any related training initiatives, and provide 
responses to the following: With respect to ``TSI Evolution'' and its 
incorporation of multi-modal training and deployment, how does TSA 
reconcile administering the STSIP in a way that dilutes the focus on 
surface transportation experience, expertise, and activities with the 
Federal authorizing statute which requires a specific emphasis on 
surface systems and carriers?\9\
---------------------------------------------------------------------------
    \9\ Id.
---------------------------------------------------------------------------
    Answer.* Transportation Security Inspector (TSI) Evolution does not 
dilute surface modal expertise. While an introductory orientation to 
all modes is provided to all inspectors, each inspector spends 80 
percent of initial formal instruction in training for their primary 
mode and core skills. In the initial core training, TSI-Surface receive 
2 weeks of general Transportation Security Administration (TSA) 
training (includes TSA compliance and enforcement philosophy), 3 weeks 
of modal specialty training (one each in surface, cargo, and aviation), 
and 1 week of railroad operations training. After completing the 
initial core classes, surface inspectors receive additional surface 
specific training including Transportation of Hazardous Material (1 
week), Transit Rail Incident Investigation (1 week), and Transit System 
Security (1 week). The training provided to surface inspectors is 
robust and comprehensive. Additionally, new inspectors must go through 
an extensive on-the-job training (OJT) process within mode and be 
observed and qualified at a National strike. Both of these training 
processes focus solely on surface inspections and mode expertise over 
the course of at least 1 year.
---------------------------------------------------------------------------
    * TSA's Compliance Personnel Evolution Handbook was also submitted 
in response to this question and retained in committee files.
---------------------------------------------------------------------------
    All inspectors are then firmly grounded in developing depth of mode 
expertise. It is only after 3 or 4 years of extensive qualification 
that inspectors receive an orientation in another mode. As 
transportation becomes more and more multi-modal, all security 
inspectors need domain awareness to ensure they have a general 
understanding of other modes so they can recognize security breaches 
and summon an inspector with modal expertise. As an example, one multi-
modal yard may have aviation Unit Load Devices (ULDs), freight rail 
cars, and maritime multi-modal containers, and may be required to 
comply with various security programs. As another example, many 
airports have mass transit facilities entering or bordering the airport 
environment. One goal of TSI Evolution is to provide each inspector a 
level of training that will allow them to be ``surge capable'' and be a 
force multiplier in the event of a significant threat or terrorist 
attack. All inspectors must have domain awareness to recognize security 
violations; however, no inspector will specialize in more than one mode 
at any given time to ensure deep subject matter expertise.
    Question 6b. On what evaluation or assessment did TSA base the 
decision to proceed with TSI Evolution? Was any outreach to 
stakeholders conducted or was any kind of risk assessment performed 
that demonstrated how de-emphasizing the distinctions between surface 
and non-surface modes would benefit surface transportation security in 
a substantive way?
    Answer. The decision to proceed with TSI Evolution was based upon 
the recognition that TSA inspectors could be provided with additional 
technical and professional development training to increase their 
proficiency. All TSA inspectors currently gather compliance information 
using surveillance, interviews, document review, and testing. TSI 
Evolution training standards focusing on infrastructure protection, 
fraudulent document detection, and interview skills will enhance the 
ability of inspectors as they gather perform inspections. TSA 
inspectors routinely assist with threat mitigation activities, such as 
Visible Intermodal Prevention and Response (VIPR) deployments, and TSI 
Evolution training standards regarding terrorist methodology, detecting 
surveillance, and detecting suspicious behaviors will provide 
inspectors greater tools to help protect the traveling public. 
Inspectors also perform investigations and provide incident response, 
and TSI Evolution training in criminal investigations support and 
crisis management will increase inspector skills in those activities. 
While inspection environments differ (aviation, cargo, surface), the 
inspection methodology is similar across all modes. TSI Evolution will 
enhance the skills and transportation domain awareness of all TSA 
inspectors.
    Question 7. Has TSA considered an organizational structure for the 
STSIP that would separate it entirely from aviation and the non-surface 
inspections, similar to the structure described in section 302 of the 
TSA Authorization Act of 2009? Please explain in detail the grounds on 
which this type of organizational structure was or was not considered, 
and if it was considered, why it was rejected.
    Answer. The original organizational structure of the Surface 
Transportation Security Inspection Program (STSIP), after its 
establishment in February 2005, was separate from the aviation 
inspection program and thus was similar to that described in Section 
302 of the bill H.R. 2200, the Transportation Security Administration 
(TSA) Authorization Act of 2009.\10\ Under this structure, surface 
inspectors had a direct reporting line to the headquarters surface 
program office through twelve Area Inspection Supervisors. However, in 
December of 2006, TSA decided it would be more effective to restructure 
the reporting lines and integrate the surface inspectors and area 
supervisors into reporting lines of the Federal Security Director (FSD) 
with the other inspection modes.
---------------------------------------------------------------------------
    \10\ Transportation Security Administration Authorization Act of 
2009, H.R. 2200, 111th Cong.  302(b) (as passed by House, June 4, 
2009).
---------------------------------------------------------------------------
    TSA considered the placement of surface inspectors and decided the 
best approach for placement of those assets was under the FSDs. The 
FSDs are responsible for implementing all operational activities across 
all modes of transportation. TSA decided to integrate surface 
inspectors into this command structure because FSDs are equipped to 
leverage the security network in their areas. Also, such a structure 
allows for maximum efficiencies and reduces duplication of effort and 
ambiguity and overlap in roles and responsibilities. The organization 
maintains strong National oversight through the headquarters Office of 
Compliance and Regional Security Inspector (RSI) positions, but allows 
local flexibility to address local security concerns. This allows TSA 
to ensure the mission is completed in the most effective and fiscally 
responsible manner, with the greatest security benefit.
    Question 8a. Explain how, if at all, TSA is implementing a risk-
based strategy that clearly links resources to risk in deploying its 
surface inspectors under the new TSI Evolution structure.
    What mechanisms are in place to ensure that surface transportation 
systems receive security resources and support at a level consistent 
with the significant threats, vulnerabilities, and consequences of 
terrorism that they face?
    Answer. Transportation Security Inspector (TSI) Evolution is a 
process to develop the professional skills of all Transportation 
Security Administration (TSA) inspectors through enhanced training and 
quality control standards; it will not affect the deployment of surface 
inspectors. With regard to risk, the current TSA inspections program 
can reduce risk as it directly relates to the stakeholders' ability to 
implement the regulations and the inspectors' ability to identify 
anomalies, while performing a regulatory oversight inspection. The 
training and quality control standards identified in TSI Evolution will 
enhance the ability of the TSA inspector to detect anomalies, and 
therefore reduce risk. For example, if a surface inspector is handed 
forged, altered, or fraudulent documents from a rail operator, they may 
appear normal to the untrained eye; however, to a surface inspector who 
has received fraudulent document examination training as required by 
TSI Evolution, those same documents may be detected as fraudulent. TSI 
Evolution reduces risk by providing surface inspectors with additional 
training to increase their proficiency at performing security and 
regulatory compliance activities.
    TSA deploys its surface inspection assets primarily based on the 
four key factors listed below to ensure that its available resources 
are efficiently distributed.
    1. Location within a High Threat Urban Area (HTUA);
    2. Top 100 mass transit/passenger rail system within the home city;
    3. Toxic Inhalation Hazardous (TIH) materials traffic flow within 
        that city/airport location; and
    4. City/airport located in the Northeast Corridor (NEC).
    TSA's grant programs and policy are part of a comprehensive set of 
measures to strengthen the Nation's critical infrastructure against 
risks associated with potential terrorist attacks. The programs provide 
funds to owners and operators of surface transportation systems 
(transit, intercity bus, passenger rail, freight rail, etc.) to protect 
critical transportation infrastructure and the traveling public from 
acts of terrorism. The Department of Homeland Security (DHS) continues 
to prioritize projects and awards based on their effectiveness in 
reducing risk. Grant funding focuses on ``prevent and protect'' 
operational activities, such as training, drills and exercises, public 
awareness campaigns, security planning, visible, unpredictable 
deterrence, and critical infrastructure remediation. Fiscal year 2010 
funding priorities also include protection of high-density stations 
(both multi-user and single-user), key operating asset protection, and 
other mitigation activities including interoperable communications, 
evacuation plans, and protection of low-density stations.
    Question 8b. What safeguards are in place ensures that surface 
transportation security funding and personnel are used only for surface 
activities, and not commingled with non-surface resources?
    Answer. TSA obligates resources only after programmatic and 
financial reviews to certify that each obligation is properly charged 
against the correct fund and program, project, and activity. TSA 
maintains financial system data, as well as programmatic data, that 
support the proper allocation and obligation of resources. This ensures 
Surface Transportation Security resources are used only on surface 
initiatives.
    Question 9a. Regulations governing public transportation agencies, 
rail carriers, and inter-city buses required by sections 1405, 1408, 
1512, 1517, 1531, 1534, of the 9/11 Act are more than 2 years 
overdue,\11\ but TSA has yet to issue Notices of Proposed Rulemaking 
(NPRMs) for them. The scope and focus of these regulations will affect 
the operations and planning of surface transportation systems in a 
considerable way, and will likely require a corresponding expansion of 
Federal interaction with stakeholders.
---------------------------------------------------------------------------
    \11\ U.S.C.  1134, 1137, 1162, 1167, 1181, 1184.
---------------------------------------------------------------------------
    In view of these facts, why did TSA change the STSIP command 
structure and begin implementation of the TSI Evolution initiative 
before these regulations have been issued? Explain fully and be 
specific.
    Answer. TSI Evolution is a professional development program for all 
TSIs-S and will not affect enforcement of regulations. There is no 
linkage between any changes to the Surface Transportation Security 
Inspection Program (STSIP) command structure and the implementation of 
Transportation Security Inspector (TSI) Evolution. As discussed above, 
TSI Evolution provides all Transportation Security Administration (TSA) 
inspectors with increased professional, technical training, and also 
institutes quality control standards. TSI Evolution is not centric to 
the surface inspections program, and it will affect all TSA 
inspectors--aviation, cargo, surface, and canine.
    Question 9b. When will TSA issue NPRMs for these regulations?
    Answer. A notice of proposed rulemaking for security training is in 
the final drafting and review stages within TSA and is expected to be 
published in the Federal Register in early 2011. As required among the 
various provisions of the 9/11 Act, this rulemaking process has 
included identification of high-risk tiers, review and consideration of 
other training programs and best practices, and consultation with a 
broad range of stakeholders.
    TSA has also started developing the framework for the first of the 
three proposed rules implementing the assessment and planning 
requirements for surface modes. As required by the 9/11 Act, the 
rulemaking process has involved, and will continue to involve, a review 
of other similar programs and extensive consultation with stakeholders.
    Question 9c. When will TSA submit a risk-based staffing plan, which 
specifically incorporates any anticipated expansion or other changes 
relating to these forthcoming regulations?
    Answer. All programs in the OSO Compliance Office, including the 
STSIP, recently completed a data analysis in coordination with the 
Office of Human Capital to determine inspector allocation requirements. 
The data analysis is complete, and corresponding implementation will 
occur in fiscal year 2011. The staffing model adjusts to account for 
updated requirements, such as the issuance of new regulations and 
resulting increase in regulated entities.
    TSA will evaluate the total number of inspectors needed to carry 
out and enforce new regulations that will be promulgated as a result of 
the Implementing Recommendations of the 9/11 Commission Act of 2007. 
This evaluation will occur in conjunction with the development of the 
Notice of Proposed Rule-Makings (NPRM), which is currently in process. 
Data, such as number and locations of entities covered and the depth of 
the regulatory requirements, are driving factors in the model.
    Question 10a. Over the past 2 years, TSA reported more than 
doubling the size of surface inspectors, expanding from 93 inspectors 
in June 2008 to 201 inspectors in April 2010. However, as of April 
2010, TSA reported having completed only 5 assessment reviews of 
transit systems for the year leaving the agency far short of efforts in 
previous years (49 in fiscal year 2009, 42 in fiscal year 2008, 54 in 
fiscal year 2007), even though a significant number of new staff were 
hired.
    Please explain this discrepancy between the added resources and the 
significantly lower productivity in the BASE reviews and please 
discuss, in light of the above information, how TSA determines the size 
of its inspector workforce and how TSA plans to allocate inspector 
resources across the various modes in the future.
    Answer. As of August 2010, the Transportation Security 
Administration (TSA) has completed 15 Baseline Assessment for Security 
Enhancement (BASE) reviews in fiscal year 2010, and there are several 
currently underway; therefore, it is yet to be determined how many will 
be completed by the end of fiscal year 2010. BASE reviews are 
comprehensive assessments that require a significant amount of time and 
stakeholder coordination to complete. They are voluntary on the part of 
the stakeholder, and therefore must be completed with consideration 
given to the stakeholder's availability and schedule. Fiscal year 2007 
and fiscal year 2008 were the years when initial BASE reviews were 
conducted on many transit agencies, with fiscal year 2009 and fiscal 
year 2010 focused on BASE revisits.
    TSA surface inspectors work in all modes including freight, mass 
transit, and passenger rail. Workload requirements for inspector 
activity are developed at the onset of each fiscal year, with 
consideration given to the priorities established by the TSA Office of 
Transportation Sector Network Management (TSNM). This is published to 
the field in the form of an Annual Work Plan.
    Question 10b. TSA's fiscal year 2010 inspector workforce plan 
comments that follow-up action to address performance weaknesses 
identified by BASE assessment results is an essential component of 
TSA's continuous improvement process and the implementation of its 
security strategy for mass transit. What progress has TSA made to set 
and meet its performance targets for conducting the BASE reviews and 
for following up with agencies to address areas identified as needing 
improvement?
    Answer. TSA's Surface inspector workforce has conducted 159 BASE 
reviews and 48 BASE re-assessments since the inception of the BASE 
program in the latter part of fiscal year 2006. Of the 159 completed 
BASE reviews, 15 have been completed in fiscal year 2010. For fiscal 
year 2011, the Surface Transportation Security Inspection Program 
(STSIP) will continue to conduct BASE reviews focusing on high-risk 
transit agencies that have a 60,000 or more average weekday ridership. 
In fiscal year 2011, 32 high-risk transit agencies are scheduled for 
re-assessment based on previous BASE results. Another 30 transit 
agencies are outside the high-risk category and may be re-assessed 
depending upon local workload and resource availability.
    In the fiscal year 2010 inspection workforce plan, Transportation 
Security Inspectors--Surface (TSI-S) personnel did initiate follow-up 
visits to BASE assessed transit agencies to address performance 
weaknesses identified by the results; however, the follow-ups visits 
were not part of a formal performance improvement program. Beginning in 
fiscal year 2011, TSA is set to introduce a formal follow-up program 
called the Performance Improvement Action Plan (PIAP). The PIAP program 
will support and monitor the efforts of transit agencies to improve 
security vulnerabilities discovered through BASE reviews. TSI-S 
personnel will evaluate the transit agencies improvement efforts and 
prioritize lists of security improvements necessary to make public 
transportation systems, facilities, and passengers more secure. TSI-S 
personnel will also work closely with transit agencies to offer 
additional tools and TSA programs to help bolster the low-scoring 
sections found in the BASE reviews and re-assessments.
    Question 11a. Given how important surface transportation experience 
and expertise is to maintaining credibility with the surface 
transportation community, such as with freight railroad and mass 
transit system representatives what steps has TSA taken in hiring 
hundreds of new inspectors to ensure that it is hiring individuals with 
this type of critical surface background?
    Provide detailed information identifying the background, including 
qualifying experience and expertise, for the inspectors that have been 
hired in the past 2 years.
    Answer. The Transportation Security Administration (TSA) has taken 
steps to ensure that all field offices throughout the Nation hire 
surface inspectors with relevant surface experience. The hiring process 
requires surface experience for the highest level positions within 
surface inspections, including the supervisor and lead positions. There 
are more candidates hired in at the lower levels without surface 
experience, but they are high-caliber candidates who have the requisite 
qualifications and skills to learn the surface inspection processes and 
be productive within this field.
    During the last 2 years (from August 1, 2008 to July 31, 2010):
  <bullet> Total number of Transportation Security Inspectors--Surface 
        (TSIs-S) hired was 146.
  <bullet> Of those 146, 63 were hired at the ``G'' Band level (lowest 
        level inspector position).
  <bullet> 15 of those ``G'' Band hires had previous surface 
        experience.
    Of the 83 other TSIs-S hired above the G band level, 45 had 
previous surface experience as detailed below:
  <bullet> Total ``J'' Band hires was 4 and of those 1 had surface 
        experience.
  <bullet> Total ``I'' Band hires were 28 and of those 18 had surface 
        experience.
  <bullet> Total ``H'' Band hires was 51 and of those 26 had surface 
        experience. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Question 11b. Provide a detailed explanation of why surface 
inspectors receive two weeks of mandatory aviation and air cargo 
training when they are first hired.
    Question 11c. In addition, indicate TSA's view as to whether this 
practice is consistent with the requirement in the authorizing 
statute,\12\ which states that the Secretary of Homeland Security, 
acting through the TSA administrator, has the authority to ``train, 
deploy, and utilize'' surface inspectors exclusively for statutorily 
defined mission,\13\ and ``shall require that [surface inspectors] have 
relevant transportation experience and other security and inspection 
qualifications.''\14\
---------------------------------------------------------------------------
    \12\ 6 U.S.C.  1113.
    \13\ The statutory mission states that the Secretary, acting 
through the administrator, ``shall use [surface inspectors] to assist 
surface transportation carriers, operators, owners, entities, and 
facilities to enhance their security against terrorist attack and other 
security threats and to assist the Secretary in enforcing applicable 
surface transportation security regulations and directives.'' 6 U.S.C. 
 1113(b).
    \14\ 6 U.S.C.  1113(d).
---------------------------------------------------------------------------
    Question 11d. Explain the factors on which TSA bases this view and, 
specifically, the evidence and process by which TSA determined that 
training surface inspectors for aviation and air cargo activities is a 
risk-based, cost-effective use of funding and personnel resources.
    Answer. In June 2010, a newly developed TSI Multi-Modal Basic 
Course was implemented to provide all new TSA inspectors (aviation, 
cargo, and surface) with 6 weeks of initial training. In the initial 
training, TSIs-S receive 2 weeks of general TSA training (includes TSA 
compliance and enforcement philosophy), 3 weeks of modal specialty 
training (one each in surface, cargo, and aviation), and 1 week of 
railroad operations training. After completing the initial core 
classes, surface inspectors receive additional surface-specific 
training including Transportation of Hazardous Material (1 week), 
Transit Rail Incident Investigation (1 week), and Transit System 
Security (1 week). In TSA's view, the training received by surface 
inspectors is extensive and overwhelmingly applicable to surface 
security activities. The Compliance Program also provides multi-modal 
recurrent training on a quarterly basis for Transportation Security 
Inspectors that is designed to deliver current information and 
direction regarding changes in programs, inspection guidance, methods 
and techniques, and other subjects pertinent to the aviation, cargo, 
and surface modes.
    The reason for giving surface inspectors basic information about 
aviation and cargo is to enable them to help in the aviation and cargo 
environments in the event of a significant threat to the traveling 
public or terrorist attack targeting aviation or cargo; likewise, the 
reason for giving aviation and cargo inspectors basic information about 
surface is to enable them to assist in the event of an incident or 
attack targeting the surface mode. With numerous airports--such as 
Chicago O'Hare (ORD), Ronald Reagan Washington National Airport (DCA), 
and Hartsfield Atlanta International Airport (ATL) to name a few--that 
are multi-modal centers which contain air, rail, bus, etc. in one 
location, the significance of this capability is magnified. All 
inspectors must have domain awareness to recognize security violations 
in other modes. TSIs-S are not expected to perform routine work in 
other modes. In this way, TSA views this training as risk-based and 
cost-effective.
    Question 12. Over the course of fiscal year 2009, what portion, as 
a percentage of total surface inspector work hours, of all surface 
inspector activities was devoted to freight rail? What portion was 
devoted to passenger rail and mass transit activities? What portion was 
used for non-surface activities? What portion was used for Visible 
Intermodal Prevention and Response (VIPR) activities? Please also 
provide data for each of the aforementioned categories covering the 
period October 1, 2009 through July 31, 2010.
    Answer.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question 13. Please provide detailed budget data showing how 
funding and personnel resources appropriated for ``Surface 
Transportation Security Inspectors and Canines'' for fiscal year 2008, 
fiscal year 2009, and fiscal year 2010 were allocated and spent (or are 
planned to be allocated and spent), including a description of all 
activities and administration that involved, directly or indirectly, 
non-surface modes.
    Answer.

                                          OLE/FAMS SURFACE TRANSPORTATION/RAIL SECURITY INSPECTORS AND CANINES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year 2008                Fiscal Year 2009                Fiscal Year 2010*
                                                         -----------------------------------------------------------------------------------------------
                                                              Amount          Amount          Amount          Amount          Amount          Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
Total Funding Received..................................   $5,500,000.00  ..............   $5,500,000.00  ..............   $5,500,000.00  ..............
Travel..................................................  ..............      $42,700.00  ..............     $183,837.00  ..............     $165,578.00
Facility Management.....................................  ..............           $0.00  ..............       $1,991.00  ..............      $39,158.00
Contracts...............................................  ..............       $7,852.00  ..............     $884,573.00  ..............   $2,366,094.00
COOP Agreements**.......................................  ..............   $5,335,000.00  ..............   $2,134,500.00  ..............   $3,761,294.00
IT/Training.............................................  ..............           $0.00  ..............       $2,192.00  ..............     $183,313.00
Equipment...............................................  ..............           $0.00  ..............     $348,492.00  ..............     $251,760.00
Maritime training lab...................................  ..............  ..............  ..............     $750,000.00  ..............  ..............
Explosive Magazines.....................................  ..............  ..............  ..............  ..............  ..............      $75,084.00
Total Teams at end of fiscal year.......................  ..............              85  ..............              95  ..............             114
--------------------------------------------------------------------------------------------------------------------------------------------------------
Notes: The funding received by the Canine Program does not support Rail Security Inspectors. This funding directly supports State and Local LE teams in
  the Mass Transit and Maritime transportation venues.
* Fiscal year 2010 had carryover funds of $1,196,607.
** Fiscal year 2008 amount includes $2,287,500 that was used for forward funding for fiscal year 2009 activities.

    Question 14. Please provide the current number of surface 
inspectors employed by TSA as of July 31, 2010; the total number of 
surface inspectors authorized through fiscal year 2010, as well as the 
number authorized through fiscal year 2011; and the number of surface 
inspectors TSA is planning to hire by the end of fiscal year 2010, and 
by the end of fiscal year 2011.
    Answer. The Transportation Security Administration (TSA) was 
authorized a total of 404 Surface Transportation Security Inspector--
Surface (TSI-S) positions in fiscal year 2010. TSA's goal is to fill 
the vast majority of vacant positions by the end of the fiscal year. A 
National job announcement was closed in June 2010, and several 
positions have been filled while others are in various stages of the 
hiring and selection process. As of July 31, 2010, there were 251 
surface inspectors employed with the TSA. Authorized levels for fiscal 
year 2011 are still to be determined.
    Question 15. TSA has deployed Federal Air Marshal Service (FAMS) 
personnel, as well as other non-surface transportation security 
personnel, to lead VIPR team deployments in public transit and 
passenger rail systems. Since the FAMS' primary mission, training, and 
experience are in supporting aviation security, how did TSA determine 
that FAMS personnel should be deployed as a part of surface VIPR teams?
    Answer. The VIPR program was originally conceived to deliver two 
fundamental types of operations, law enforcement and screening. Public 
Law 110-53, Section 1303(a) authorized the deployment of the VIPR teams 
by the Secretary of the Department of Homeland Security and 
specifically mentions Federal Air Marshals as assets available for use 
with those teams. This authorization was delegated to the TSA 
Administrator. The Federal Air Marshal Service (FAMS) is TSA's Law 
Enforcement Resource; therefore FAMS resources were utilized for VIPR 
involvement. TSA will continue to monitor improving State and local law 
enforcement capabilities when determining whether to deploy FAMS 
resources to VIPR operations.
    Question 16a. Recently, TSA has significantly expanded its 
resources dedicated to deploying VIPR Teams at the Nation's surface 
transportation systems since establishing the program in late 2005. 
However, the Government Accountability Office (GAO) previously reported 
that TSA lacks qualitative performance measures to determine the 
effectiveness of these operations in enhancing the security of surface 
transportation systems.\15\
---------------------------------------------------------------------------
    \15\ U.S. Gov't Accountability Office, Rep. No. GAO-09-678, 
Transportation Security: Key Actions Have Been Taken To Enhance Mass 
Transit and Passenger Rail Security, But Opportunities Exist To 
Strengthen Federal Strategy and Programs, 31-32 (2009). See also 
Securing the Nation's Rail and Other Surface Transportation Networks 
Before the S. Comm. on Commerce, Science, and Trans., 111th Cong. 14-15 
(2010) (statement of Stephen M. Lord, Director, Homeland Security and 
Justice Issues, U.S. Gov't Accountability Office).
---------------------------------------------------------------------------
    Has TSA developed these qualitative performance measures and, if 
so, what are they?
    Answer. Since this GAO report, the VIPR program now has processes 
in place to implement outcome-focused metrics. In the first quarter of 
fiscal year 2010, TSA accomplished its goal of establishing metrics for 
the VIPR Program. TSA though continues to refine these metrics to 
evaluate and adapt to improve VIPR reporting.
    Future metrics will rely on stakeholder and location information as 
well as risk measurement information captured from the Transportation 
Sector Security Risk Assessment (TSSRA) methodology.
    Question 16b. Has TSA submitted an expenditure plan for the VIPR 
program to the House and Senate Appropriations Committees, as required 
by fiscal year 2010 homeland security appropriations legislation?\16\
---------------------------------------------------------------------------
    \16\ Pub. L. 111-83. See also H. Rep. No. 111-298 (2009); H. Rep. 
No. 111-157 (2009); S. Rep. No. 111-31 (2009).
---------------------------------------------------------------------------
    Answer. Yes, TSA submitted an expenditure plan for the VIPR Program 
to the House and Senate Appropriations Committee on March 2, 2010.
    Question 16c. What office or program possesses the budget authority 
to obligate funding and personnel resources for VIPR teams and 
activities?
    Answer. TSA's Office of Law Enforcement and Office of Security 
Operations have the budget authority to obligate funding and personnel 
resources for VIPR teams and activities.
    Question 16d. What office or program possesses the budget authority 
to obligate funding and personnel resources budgeted and appropriated 
under ``Surface Transportation Security Inspectors and Canines?''
    Answer. TSA's Office of Law Enforcement and Office of Security 
Operations have the budget authority to obligate funding and personnel 
resources budgeted and appropriated under the ``Surface Transportation 
Security Inspectors and Canines'' Program Project Activity (PPA).
    Question 16e. What mechanisms are in place to ensure that resources 
appropriated under ``Surface Transportation Security'' are not 
commingled with or used for non-surface VIPR activities or TSA 
employees other than surface inspectors?
    Answer. TSA obligates resources only after a programmatic and 
financial review which certifies each obligation is properly charged 
against the correct funding stream. TSA maintains financial system data 
as well as programmatic data which ensures Surface Transportation 
Security resources are used only on surface initiatives, including 
surface VIPR activities and positions in support of securing surface 
transportation modes. This includes surface inspectors and other 
positions funded by the appropriation as identified in the 
Congressional Budget Justification and in subsequent reports to 
Congress. Staff in the office of TSA's Chief Financial Officer also 
stays in close communication with the VIPR Program Manager to ensure 
that resources are spent properly.
    Question 17. In June 2009, GAO recommended that DHS develop a 
strategy for using surface inspectors to assist in monitoring grant 
projects funded through TSGP.\17\ In June 2010, the Federal Emergency 
Management Agency (FEMA) reported that it will work toward development 
of a cost-effective monitoring plan to include the use of TSA surface 
inspectors when their expertise in transit security would be 
appropriate for monitoring grant program functions. What efforts, if 
any, are being made by TSA and FEMA to include surface inspectors in 
the oversight of TSGP grant projects?
---------------------------------------------------------------------------
    \17\ U.S. Gov't Accountability Office, Rep. No. GAO-09-491, Transit 
Security Grant Program: DHS Allocates Grants Based on Risk, But Its 
Risk Methodology, Management Controls, and Grant Oversight Can Be 
Strengthened, 40 (2009).
---------------------------------------------------------------------------
    Answer. There is substantial interest in advancing a more effective 
capability for monitoring progress in the execution of security 
enhancement projects in mass transit and passenger rail funded under 
the Transit Security Grant Program (TSGP). The Transportation Security 
Administration (TSA) and the Federal Emergency Management Agency (FEMA) 
are working together to develop a program that takes advantage of the 
two agencies' respective expertise. To further this effort, two pilot 
programs using surface inspectors will be conducted in fiscal year 
2011; one will take place in the western United States, and another in 
the eastern United States. The focus will be reviewing transit agency 
security enhancements that are made with grant funds to determine their 
level of security effectiveness and/or appropriateness. The pilot 
programs will not entail an accounting or administrative review of 
expenditures of funds, which falls within the scope of FEMA's grant 
oversight responsibilities. Results from the pilot programs will help 
shape the final monitoring plan.
    Question 18. Please provide a description and salient details of 
the contract with Lockheed Martin concerning the hiring and recruitment 
of TSA surface inspectors, including whether this human resources 
contract is part of a larger contract.
    Answer. The Transportation Security Administration's (TSA) HR 
services contract was awarded to Lockheed Martin after full and open 
competition. The service provider is responsible for recruiting, 
hiring, payroll, personnel transaction, and help desk support under 
strong Government oversight both at program and contract level. This is 
a performance-based fixed price contract. The hiring and recruitment of 
TSA surface inspectors falls under Management, Administrative, and 
Professional (MAP) support of the contract, however all selection 
decisions are made by Government officials.

                                 <all>

</pre></body></html>
